No. 19-____
IN THE

Supreme Court of the United States
————
IN RE PETER APPEL AND SALLY JANE GELLERT
(AND OTHER SIMILARLY SITUATED PERSONS),
v.

Petitioners,

THE UNITED STATES, AND DONALD J. TRUMP AS
PRESIDENT AND MIKE PENCE AS VICE PRESIDENT,
Respondents,
and
HILLARY CLINTON AND TIM KAINE,
Interested Persons.
————
PETITION FOR EXTRAORDINARY WRIT OF
DIRECT REVIEW FROM CONGRESSIONAL
CERTIFICATION PURSUANT TO RULE 20
(Re the Electoral College)
————
WILLIAM D. RUSSIELLO
Attorney for Petitioners
45 Essex Street
Suite 3 West
Hackensack, New Jersey 07601
(201) 342-0696
wrussiello@cs.com
ANN L. DETIERE-RUSSIELLO
Of Counsel and on the Brief
September 10, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
1. Whether this Court has the “other jurisdiction”
(pursuant to Rule 20 of Part 4 of the Supreme Court
rules) to grant the within petition for an appeal writ of
mandamus, pursuant to the All Writs Act (28 U.S.C.
§ 1651(a)), in order to review the declaration of
constitutional law by the Congress, dated January 6,
2017, that had declared the electoral tally as legally
decisive of the 2016 presidential election.
2. Whether the petitioners have standing to appeal
from the congressional certification when their votes
for the Democratic ticket were discarded in the “red”
state of Pennsylvania and in the “blue” state of New
Jersey.
3. Whether voter injury may be legally presumed
when the petitioners’ disenfranchisement directly
resulted from the electoral certification by Congress.
4. Whether the electoral provisions of the Constitution before the Civil War have been implicitly
superseded by the 24th and the 26th amendments.
5. Whether the electoral provisions of Title 3
remain valid and effective.
6. Whether the Congress had any subject matter
jurisdiction to render the electoral certification sought
to be reviewed.
7. Whether the 2016 and/or 2020 presidential
elections are justiciable and capable of repetition while
evading timely review.
8. Whether the doctrine of in pari materia applies
to Title 28 (including § 1651(a) & 1291 & 2201(a)) to
permit direct review of the certification under Rule 20.
9. Whether this Court has legally declared that the
electoral college is historically obsolete such that the
certification violated the doctrine of stare decisis.
(i)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.............................

i

JURISDICTIONAL STATEMENT .................

1

FACTUAL STATEMENT .................................

3

The Parties ........................................................

3

The Petitioners..........................................

3

The Respondents .......................................

3

Interested Persons ....................................

3

Similarly Situated Persons ......................

3

The Decision Sought to be Reviewed ...............

4

The Appendix ....................................................

6

The Competing Election Outcomes ..................

7

LEGAL QUESTIONS ........................................

9

Substantive Issues ............................................

9

Intervening Judicial Precedents ..............

9

Historical Context .....................................

12

The Supersession Doctrine .......................

15

Other Controlling Standards ...................

18

The Import of Bush v. Gore ......................

19

Congressional Abuse.................................

21

Justiciability Issues ..................................

22

Procedural Issues..............................................

24

Appeal Exceptions ....................................

24

Rule 20 ......................................................

26

(iii)

iv
TABLE OF CONTENTS—Continued
Page
1. Appellate Jurisdiction .........................

27

2. Exceptional Circumstances .................

28

3. Alternative Recourse ............................

29

Remedial Relief .................................................

31

Post-Script Summary .......................................

33

CONCLUSION ...................................................

34

APPENDIX
Judicial Order by Non-Judicial Tribunal:
Congressional Record, First Session of the
115th Congress, Vol. 163, no. 4, dated
January 6, 2017, “Counting Electoral Votes –
Joint Session of the House and Senate Held
Pursuant to the Provisions of Senate
Concurrent Resolution 2” ................................

1a

Constitutional Provisions:
Preamble (1787-1789) ......................................

30a

Article II, Section 1 (1787-1789) ......................

30a

Article III (excerpted) ......................................

31a

Amendment XII (1804) ....................................

31a

Amendment XXIV (1964).................................

33a

Amendment XXVI (1971).................................

33a

Statutory Provisions:
Title 3
Section 15 (3 U.S.C. § 15) .............................

34a

Section 20 (3 U.S.C. § 20) .............................

36a

v
TABLE OF CONTENTS—Continued
Page
Title 28
Section 1651(a) (28 U.S.C. § 1651(a)) ..........

36a

Section 1291 (28 U.S.C. § 1291) ...................

37a

Section 2201(a) (28 U.S.C. § 2201(a)) ..........

37a

Federal Rules of Civil Procedure (FRCP)
Fed. R. Civ. P. 60(a)......................................

37a

Fed. R. Civ. P. 60(b)......................................

37a

Federal Rules of Evidence Rule 201(b)(2) .......

38a

Published Articles:
NEW YORK TIMES: It Is Over: Democrats’
Efforts to Deny Trump Presidency Fail by
Matt Flegenheimer (January 6, 2017) ............

39a

TIME: Hillary Clinton Leads by 2.8 Million in
Final Popular Vote Count by Sarah Begley
(December 20, 2016) ........................................

42a

NEW YORK TIMES: Why Trump Had an Edge
in the Electoral College by Nate Cohn
(December 19, 2016) ........................................

44a

NEW YORK TIMES: As American as Apple Pie?
The Rural Vote’s Disproportionate Slice of
Power by Emily Badger (November 20, 2016)

53a

NEW YORK TIMES EDITORIAL BOARD: Time
To End The Electoral College credit Tyler
Comrie (December 19, 2016) ...........................

61a

vi
TABLE OF CONTENTS—Continued
Page
SCIENTIFIC AMERICAN, Guest Blog, The
Funky Math of the Electoral College,
Everyone knows it’s a weird way to elect
presidents—but it’s even crazier than you
think by Randyn Charles Bartholomew
(August 24, 2016) https://blogs.scientific
american.com/guest-blog/the-funky-math-ofthe-electoral-college/ ........................................

65a

POLITICO: Trump pushes to swap Electoral
College for popular vote by Louis Nelson
(April 26, 2018) https://www.politico.com/
story/2018/04/26/trump-electoral-college-pop
ular-vote-555148 ..............................................

70a

INTELLIGENCER: A New 2016 Election Voting
Map Promotes . . . Subtlety by Eliza McCarthy
(March 9, 2018) http://nymag.com/intellig
encer/2018/03/a-new-2016-election-votingmap-promotes-subtlety.html ...........................

72a

DAILY CALLER: LA Times Editorial: Electoral
College Is Unconstitutional And Should Be
Banned by Blake Neff (December 16, 2016)
https://dailycaller.com/2016/12/16/la-timeseditorial-electoral-college-is-unconstitutionaland-should-be-banned/ .....................................

75a

Petitioners’ Affidavits:
Affidavit by Sally Jane Gellert, sworn to
November 9, 2018 ............................................

77a

Affidavit by Peter Appel, sworn to November
9, 2018 ..............................................................

78a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Abbott v. Abbott,
560 U.S. 1, 130 S. Ct. 1963 (2010) ............

32

Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics,
403 U.S. 388, 91 S. Ct. 1999 (1971) ..........

33

Board of Estimate of City of New York v.
Morris,
489 U.S. 688, 109 S. Ct. 1433 (1989) ........

10

Bush v. Palm Beach County
Canvassing Board, (a/k/a Bush I),
531 U.S. 70, 121 S. Ct. 471 (2000) ...... 19, 20, 31
Bush v. Gore, (a/k/a Bush II),
531 U.S. 1046, 121 S. Ct. 512 (2000) ...19, 20, 31
Bush v. Gore, (a/k/a Bush III),
531 U.S. 98, 121 S. Ct. 525 (2000) ...... 19, 20, 31
Chafin v. Chafin,
568 U.S. 165, 133 S. Ct. 1017 (2013) ........

32

Christianson v. Colt Industries,
486 U.S. 800, 108 S. Ct. 2166 (1988) ........

25

Colorado v. Kansas,
320 U.S. 383, 64 S. Ct. 176 (1943) ............

26

Davidson v. City of Cranston,
188 F. Supp 3d, reversed on other
grounds, 837 F.3d 135 (1st Cir. 2016) ......

28

DC Court of Appeals v. Feldman,
460 U.S. 462, 103 S. Ct. 1303 (1983) ........ 22, 27
Evenwel v. Abbott,
578 U.S. ___, 136 S. Ct. 1120 (2016) .......passim

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Gill v. Whitford,
585 U.S. ___, 138 S. Ct. 1916 (2018) ........ 11, 23
Gray v. Sanders,
372 U.S. 368, 83 S. Ct. 801 (1963) ...........passim
INS v. Chadha,
462 U.S. 919, 103 S. Ct. 2764 (1983) ........ 21, 25
Johnson v. U.S,
333 U.S. 46, 68 S. Ct. 391 (1948) ..............

23

Lozano v. Alvarez,
572 U.S.1, 134 S. Ct. 1224 (2014).............

32

Kansas v. Nebraska,
135 S. Ct. 1042 (2015) ...............................

26

Karcher v. Daggett,
462 U.S. 725, 103 S. Ct. 2653 (1983) ........

19

Kerr v. United States District Court,
426 U.S. 394, 96 S. Ct. 2119 (1976) .......... 28, 30
Kilbourn v. Thompson,
103 U.S. 168 (1880) ...................................

22

Marbury v. Madison,
5 U.S. 137 (1803) ....................................... 14, 30
Marks v. Stinson,
19 F.3d 873 (3rd Cir 1994)........................

31

McNary v. Haitian Refugees Ctr., Inc.,
498 U.S. 480, 111 S. Ct. 888 (1991) ..........

28

McPherson v. Blacker,
146 U.S. 1, 13 S. Ct. 1 (1892)....................

13

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Mitchum v. Foster,
407 U.S. 225, 92 S. Ct. 2151 (1972) ..........

13

Moore v. Ogilvie,
394 U.S. 814, 89 S. Ct. 1493 (1969) .... 15, 23, 33
North Carolina v. Sandra Little Covington,
581 U.S. ___, 137 S. Ct. 1624 (2017) ........

31

Oregon v. Mitchell,
400 U.S. 112, 91 S. Ct. 260 (1970) ............

20

Parker v. Winter,
645 F. App’x 632 (10th Cir. 2018) ............

29

Patterson v. Mc. Lean Credit Union,
491 U.S. 164, 109 S. Ct. 2363 (1989) ........

27

Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211, 115 S. Ct. 1477
(1995) ....................................... 21, 24, 27, 30, 32
Ray v. Blair,
343 U.S. 214, 72 S. Ct. 654 (1952) ...... 13, 19, 29
Reynolds v. Sims,
377 U.S. 533, 84 S. Ct. 1362 (1964) ..........

22

Rucho v. Common Cause, (no. 18-422, 6/27/2019)
588 U.S. __ (2019) ..................................... 23, 30
Shelby County, Alabama v. Holder,
570 U.S. 529, 133 S. Ct. 2612
(2013) ............................................. 18, 19, 20, 29
State of Delaware v. State of New York,
385 U.S. 895, 87 S. Ct. 198 (1966) ............

29

x
TABLE OF AUTHORITIES—Continued
Page(s)
Texas v. White,
74 U.S. 700, 13 S. Ct. 1 (1869).................. 12, 13
United States v. Nixon,
118 U.S. 683, 94 S. Ct. 3090 (1974) ...... 1, 24, 25
United States v. Brown,
381 U.S. 437, 85 S. Ct. 1707
(1965) ............................................. 21, 22, 30, 31
Williams v. Rhodes,
393 U.S. 23, 89 S. Ct. 5 (1968).................. 15, 16
Williams v. Virginia Board of Elections,
288 F. Supp 622, affirmed 393 US 320,
89 S. Ct. 555 (1969) ................................... 29, 30
CONSTITUTION
U.S. Const. art. I, § 2 ....................................

17

U.S. Const. art. I, § 9 ....................................

21

U.S. Const. art. II, § 1 ..................................

12

U.S. Const. art. III .......................................passim
U.S. Const. amend. XII ................................

12

U.S. Const. amend. XIII ............................... 13, 17
U.S. Const. amend. XIV ............................... 13, 14
U.S. Const. amend. XV ........................... 13, 15, 21
U.S. Const. amend. XVII ........................ 10, 13, 21
U.S. Const. amend. XVIII ............................

18

U.S. Const. amend. XIX ......................... 13, 17, 21

xi
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Const. amend. XX .................................

15

U.S. Const. amend. XXI ...............................

18

U.S. Const. amend. XXIV
Section 1 ........................................... i, 15, 16, 20
U.S. Const. amend. XXVI .............. i, 15, 16, 17, 20
STATUTES
3 U.S.C. §§ 1-18 (1948) ...................... i, 2, 5, 12, 33
3 U.S.C. § 15 ......................................... 2, 4, 12, 27
3 U.S.C. § 20 .................................................

23

5 U.S.C. § 706 ...............................................

26

8 U.S.C. § 1252(a)(2)(a) ................................

25

8 U.S.C. § 1252(D) ........................................

25

28 U.S.C. § 1291 ........................................ i, 24, 25
28 U.S.C. § 1346 ...........................................

29

28 U.S.C. § 1651(a)
(a/k/a the AWA) ...................... i, 1, 25, 26, 27, 34
28 U.S.C. § 2201 ............................... i, 4, 17-18, 26
28 U.S.C. § 2254(d)(1-2).................................

26

42 U.S.C. § 1973 ...........................................

29

42 U.S.C. § 1983 ...........................................

29

xii
TABLE OF AUTHORITIES—Continued
RULES

Page(s)

Fed. R. Civ. P. 60(a)(b)(4) ............................. 23, 32
Fed. R. Evid. 201(b)(2) ...................................

28

Sup. Ct. R. 11 ................................................

27

Sup. Ct. R. 14 ................................................ 2, 30
Sup. Ct. R. 17 ................................................

26

Sup. Ct. R. 20 ............................ i, 1, 2, 5, 26-30, 34
OTHER AUTHORITIES
CNN, Michael Smerconish Interviews
David Wasserman of the Cook Political
Report (June 22, 2019) ..............................

8

Counting Electoral Votes—Joint Session Of
The House And Senate Held Pursuant To
The Provisions Of Senate Concur-Rent
Resolution 2, 163 Cong. Rec. H185-90,
115th Cong. 1st Sess. (January 6, 2017)
(a/k/a the Certification) ...........................passim
CRS, The Electoral College: How it Works in
Contemporary Presidential Elections, by
Thomas H. Neale (May 15, 2017)
(Congress. gov/crsreports, RL32611) ......... 4, 14
CRS Memorandum, Overview of Electoral
College Procedure and the Role of
Congress. (Nov. 17, 2000) ........................ 4, 14

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
DAILY CALLER: LA Times Editorial:
Electoral College Is Unconstitutional
And Should Be Banned by Blake Neff
(December 16, 2016) https://dailycaller.
com/2016/12/16/la-times-editorial-elect
oral-college-is-unconstitutional-andshould-be-banned/ ..................................... 28, 32
Federalist Paper No. 68
(Alexander Hamilton) .................... 20-21, 24, 31
Federalist Paper No. 78
(Alexander Hamilton) .............. 17, 21-22, 30, 31
Hillary Rodham Clinton, What Happened
(Simon & Shuster, September 2017)........

7, 8

NEW YORK TIMES: Why Trump Had an Edge
in the Electoral College by Nate Cohn
(December 19, 2016) .................................

7, 8

NEW YORK TIMES EDITORIAL BOARD: Time
To End The Electoral College credit Tyler
Comrie (December 19, 2016) .......... 8, 11, 17, 28
POLITICO: Trump pushes to swap Electoral
College for popular vote by Louis Nelson
(April 26, 2018) https://www.politico.com/
story/2018/04/26/trump-electoral-collegepopular-vote-555148 .................................

6

xiv
TABLE OF AUTHORITIES—Continued
Page(s)
SCIENTIFIC AMERICAN, Guest Blog, The
Funky Math of the Electoral College,
Everyone knows it’s a weird way to
elect presidents—but it’s even crazier
than you think by Randyn Charles
Bartholomew (August 24, 2016) https://
blogs.scientificamerican.com/guestblog/the-funky-math-of-the-electoralcollege/ ..................................................... 6, 7, 11
Scotusblog, Power versus discretion: Extraordinary relief and the Supreme Court, by
Steve Vladeck, (Dec. 20, 2018) .................

27

JURISDICTIONAL STATEMENT
There is exceptional “other jurisdiction” for the
petitioners’ extraordinary petition, pursuant to Rule
20 (Part 4) of the Supreme Court rules, for direct
appeal review from the congressional certification of
the electoral votes for the 2016 presidential election
(1a-29a) by means of an “appeal writ of mandamus,”
pursuant to the All Writs Act (the “AWA”). See 28
U.S.C. § 1651(a) (“The Supreme Court and all courts
established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective
jurisdiction and agreeable to the usages and principles
of law”).
The unique setting of any challenge to the constitutionality of the presidential election, taken together
with the serious powers issues inherent in the congressional declaration sought to be reviewed, places
this matter amply within the exceptional parameters
for an extraordinary appeal exception. See United
States v. Nixon, 118 U.S. 683, 94 S. Ct. 3090 (1974)
(appeal exceptions are appropriate in context of
presidential and separation of powers problems).
The petitioners assert legal standing to request
leave for direct review from the congressional certification (1a-29a)(the “Certification”) that directly caused
their disenfranchisement in the “blue” state of New
Jersey and the “red” state of Pennsylvania (24a-26a).
The current president was elected by a minority of the
nationwide voters because Congress certified only the
tally of the electors, in contravention of prior judicial
precedents and the import of the suffrage amendments. The petitioners respectfully request exceptional
leave for extraordinary review from the congressional
certification as a judicial order that discarded their
votes ultra vires.

2
On January 6, 2017, Congress abrogated Article III
powers by rendering findings of fact that were limited
to merely counting the electoral votes, and by rendering conclusions of law “pursuant to the Constitution
and the laws of the United States . . . to verify the
certificates and count the votes of the electors of
the several states for President and Vice President
. . .” (4a). This congressional declaration usurped the
judicial prerogative to interpret the constitution, in
contravention of prior judicial precedents finding that
the electoral college was historically obsolete and
unconstitutional under current voting standards. The
congressional announcement that the electoral tally
“shall be deemed a sufficient declaration of the persons
elected President and Vice President of the United
States . . .” (28a) was rendered pursuant to the
provisions of 3 U.S.C. §§ 1-18 (the “Statute”) that was
enacted contemporaneously with the passage of the
United States Code in 1948. Section 15 of the Statute
is annexed with emphasis supplied (34a-36a).
Despite the ensuing precedents and the suffrage
amendments after the Civil War, Congress never
repealed the Statute, notably including Section 15
(34a-36a). The Congress has apparently determined
that the initial electoral provisions of the constitution
continue to control presidential elections. The Certification constitutes reversible error as a matter of
clearly established law and constitutional history.
Congress completely lacked any current subject
matter jurisdiction to legally decide the 2016 presidential election. This petition merits discretionary appeal
review, pursuant to Rule 20 under Part 4 that governs
“other jurisdiction.”
The Certification is arguably the essential equivalent
of a district court order under Rule 14.

3
FACTUAL STATEMENT
The Parties
The Petitioners
The petitioners are adult citizens who voted for
Hillary Clinton for president (and Tim Kaine for vice
president), on or around November 8, 2016. Sally Jane
Gellert voted in the “blue” state of New Jersey (77a)
and Peter Appel voted in the “red” state of Pennsylvania
(78a). (The electoral college is well-known to color code
the voting units as democratic blue or republican red
depending upon the outcome in each presidential
election). See Certification of the 2016 electoral tally
(24a-26a).
The Respondents
The respondents are the United States, by the
Solicitor General for the Attorney General, on behalf
of itself as a governmental entity and also on behalf
of the president (Donald J. Trump) and the vice
president (Mike Pence).
Interested Persons
Interested persons are the democratic candidates,
Hillary Clinton (for president) and Tim Kaine (for vice
president), who “lost” the electoral votes and contemporaneously “won” the popular vote (but for the
congressional Certification).
Similarly Situated Persons
Other similarly situated persons include other adult
citizens who also voted for the interested candidates
(Hillary Clinton for president and Tim Kaine for vice
president) in their respective “blue” and “red” states
(24a-26a).

4
The Decision Sought to be Reviewed
The annexed transcript of the Congressional Record,
dated January 6, 2017 (1a-29a), establishes that the
Congress rendered the electoral certification “pursuant
to the Constitution and laws of the United States . . .”
(4a). Although the Congress did not specify which
provisions of “the Constitution and laws of the United
States” were applied to justify the Certification, the
Statute has historically operated as a foregone conclusion that is legally predicated upon tallying only the
electoral votes. The Certification comports with publications by the Congressional Research Service (the
“CRS”) advising that the electoral provisions of the
Constitution from before the Civil War continue to
control presidential elections. See The Electoral College:
How it Works in Contemporary Presidential Elections,
5/17/2017 (Congress.gov/crsreports, RL32611). Accord,
Overview of Electoral College Procedure and the Role
of Congress. CRS, 11/17/2000.
A review of the annexed transcript unquestionably
confirms the judicial nature of the congressional proceeding. The president of the senate over-ruled various
objections and, unlike a more traditional congressional
hearing, clarified that “[t]here is no debate” (16a). The
members attended to confirm the electoral tally, and
were directed to avoid any expressions of dissent. The
Certification was final (16a). In sum and substance,
the Congress ordered the essential equivalent of
declaratory relief that was finally dispositive. See 28
U.S.C. § 2201. Section 15 of the Statute expresses the
congressional intent to abrogate the judicial power to
“announce the decision” and to “concurrently decide”
presidential elections (36a).

5
Various rulings were rendered (22a)(“Members of
Congress, the certificates having been read, the tellers
will ascertain and deliver the result . . .”).Upon receipt
of the certificates, the presiding vice president pronounced that there were 304 electoral votes for Donald
J. Trump and 227 electoral votes for Hillary Clinton as
the factual predicate for the legal conclusion that “this
announcement of the state of the vote by the President
of the Senate shall be deemed a sufficient declaration
of the persons elected President and Vice President of
the United States . . .” (27a-28a).
Although the petitioners do not challenge the
congressional findings that the Republican ticket won
seventy-seven more electoral votes than the Democrats
by a margin of 304 to 227 (24a-26a), the Certification
was legally erroneous, notwithstanding that the Congress
was technically empowered to tally the electoral votes
under the 1948 Statute. The Certification was essentially a judicial order by a non-judicial tribunal that
merits exceptional direct appeal review under Rule 20.
The congressional pretext of statutory authority
amounted to an abrogation of judicial powers under
the same constitution that was bureaucratically invoked
to justify the Certification. Judicial deference to the
Congress is unwarranted under these extraordinary
circumstances. Insofar as the electoral college is
historically prone to also eluding any judicial review,
direct appeal recourse under Rule 20 is appropriate.
The Certification essentially over-ruled the contrary
import of well-settled judicial precedents as well as
the relatively recent suffrage amendments. The
Article III power broadly applies to “all Cases . . .
arising under the Constitution . . .” (31a) such that
the congressional abrogation under the Statute is
indefensible.

6
The Appendix
In addition to the transcript of the congressional
record that is described as the Certification (1a-29a) –
that comprises the de facto judicial order sought to be
reviewed – the annexed appendix also includes supplemental documentation to supply background information
concerning the competing elections. The Cook Political
Report by David Wasserman contains a 2016 National
Popular Vote Tracker, indicating that of the approximately 136 million citizens who voted in the 2016
election, approximately 66 million persons voted for
the Democratic ticket and approximately 63 million
persons voted for the Republican ticket (43a). (The
verifiable popular vote may be judicially noticed and
should not require any evidentiary hearing).
The appendix also contains selected articles that, for
example, criticize the “House of Cards” that incentivises
candidates to “moneyball the electoral college in all
its kludgy non-egalitarian tendencies” (69a). See also
article referencing the statement by President Trump
that the popular vote should determine the next
presidential election in 2020 (70a)(that has since been
contradicted). Other articles are also annexed, including by the editorial boards of some newspapers.
The facts that the Democrats (the “Ds”) won the
popular vote (by approximately three million more
votes) (42a-43a) and that the Republicans (the “Rs”)
won the electors’ vote (by 77 more electors) (26a-28a)
cannot be reasonably controverted. The requested
review is narrowly confined to the simplistic legal
question about which competing tally controls the
presidential election in 2016 and/or 2020.

7
The Competing Election Outcomes
The nationwide approximate three million vote
advantage for the Ds can be attributed to California’s
landslide win of approximately four more million votes
(44a & 46a). These excess votes are wasted because
“most states’ electoral votes are bundled into winnertake-all blocs” (66a). According to Nate Cohn (a
reporter with The New York Times), the Rs won more
electors’ votes than did the Ds for various reasons,
including that the Rs “didn’t waste nearly as many
votes in their best states . . .” (47a), California’s
“imperial” electors were offset by the electors from
less populated states, and the Rs “won” most of the
battleground states “by just a one point margin – but
claimed three-fourths of their Electoral College votes”
(50a). The electoral college mechanically favors the
battleground states (52a)(“If they break overwhelming one way, that’s who wins”). The battleground
advantage does not necessarily favor less populated
states. See 47a (the Ds “won plenty of small states”
and the Rs “won plenty of big states”).
The Rs won a 46 electoral advantage due to approximately 78,000 voters in the few “swing states” of
Pennsylvania (with 20 electors), Wisconsin (with 10
electors) and Michigan (with 16 electors). See What
Happened by Hillary Rodham Clinton (Simon &
Shuster, September 2017), p. 394 (“the election was
decided by 77,744 votes out of a total of 136 million
cast. If just 40,000 people across Wisconsin, Michigan
and Pennsylvania had changed their minds, I would
have won”). If the Ds had instead won these 46
electors, the electoral tally would have yielded 273
electors for the Ds (= 227 + 46) and 258 electors for the
Rs (= 304 – 46). (Although the Ds won the popular tally,
had the Ds also won these lost votes, the electoral
outcome may not have been any less arbitrary).

8
Although substantial mal-apportionment also permeates the electoral college – e.g., the 14 electors for
the “blue” state of New Jersey are offset by the same
number of electors for other “red” states with half
the population (Alaska, Nebraska, North Dakota and
Wyoming) – the Ds would have still lost the electoral
contest even if the two surplus electors had been
subtracted from each state. 47a (“Mrs. Clinton would
have fared just as badly . . . even if states were worth
exactly their share of the population”). Unlike the
2000 election, the electoral outcome in 2016 cannot be
attributed to any population mal-apportionment (47a).
The 2016 election produced the “archaic fluke of our
constitutional system.” (What Happened, at p. 387).
The expert opinion consensus is that the electoral
system leaves “tens of millions of Americans on
the sidelines” (63a). The 2016 electoral outcome is
explained by the winner take all unit voting in only
three swing states, resembling the 2004 election when
President Bush “. . . won the popular vote by more than
three million, but could have lost the Electoral College
with a switch of fewer than 60,000 votes in Ohio” (63a).
President Bush’s presidency pivoted upon only Florida
in 2000 and then only Ohio in 2004.
For reasons explained below, this Court could
render another redundant declaration (for at least the
third time) that may be less disruptive than waiting
for another electoral crisis. President Trump could
conceivably win by only one electoral vote and lose by
5 million votes in 2020 (according to David Wasserman
of the Cook Political Report interviewed by Michael
Smerconish on CNN, 6/22/2019). (The Rs could also
lose the electoral college in 2020 due to changed demographics in the state of Texas).

9
LEGAL QUESTIONS
Substantive Issues
Intervening Judicial Precedents
Prior to Congress rendering the Certification on
January 6, 2017, this Court had decided Evenwel v.
Abbott, 578 U.S. ___, 136 S. Ct. 1120 (2016) on April 4,
2016. In Evenwel, this Court found that the state
senate maps in Texas that fell within the ten percent
threshold were not unconstitutionally malapportioned.
More importantly for these purposes, this Court explained the electoral college in the historic context
of the Civil War. However, Congress determined sub
silencio that Evenwel did not control the electoral college.
It may be noted that the cited CRS article omitted to
cite any precedent as applying to the electoral college,
despite over fifty years of voting jurisprudence that
was recently recited at length in Evenwel.
In Evenwel, this Court found that there are “features
of the electoral system that contravene the principles
of both voter and representational equality.” 136 S. Ct.
at 1130 (emphasis in original). (This single finding,
taken in isolation, should be legally sufficient to vacate
the electoral college). In Evenwel, this Court recited
with approval Gray v. Sanders, 372 U.S. 368, 83 S. Ct.
801 (1963), that had invalidated the disproportionate
county unit votes. Although the electoral college was
not challenged in Gray, this Court then declared that
there is “no constitutional way by which equality of
voting power may be evaded.” Gray, 372 U.S. at 381,
83 S. Ct. at 809. Evenwel clarified the import of Gray
to mean that the state of Georgia had “unsuccessfully
attempted to defend, by analogy to the electoral
college, its scheme of assigning a certain number of
units . . .” Evenwel, 136 S. Ct. at 1130.

10
Gray necessarily controls the similar numerical
units in the electoral college. See Board of Estimate of
City of New York v. Morris, 489 U.S. 688, 109 S. Ct.
1433 (1989), cited with approval in Evenwel, 136 S. Ct.
at 1131. Gray explained the compelling reasons for
rejecting unit voting to be as follows:
The county unit system, even in its amended
form . . . would allow the candidate winning
the popular vote in the county to have the
entire unit vote of that county. Hence, the
weighting of votes would continue even if unit
votes were allocated strictly in proportion to
population. Thus, if a candidate won 6,000 of
10,000 votes in a particular county, he would
get the entire unit vote, the 4,000 other votes
for a different candidate being worth nothing
and being counted only for the purpose of
being discarded.
Gray, 372 U.S. at 381, 83 S. Ct. at 809 (footnote # 12)
(emphasis supplied).
The problem with any kind of unit voting (whether
in counties or states) is “. . . in tabulating the votes . . .”
(absent any population disparity). Gray, 372 U.S. at
381, 83 S. Ct. at 809. It is probably never feasible to
tabulate the individual votes that are batched into
numerical units. See Board of Estimate. (By contrast,
the federal senators are directly voted for only by
individuals under the 17th amendment). For example,
the vote by Mr. Trump in New York may be described
as a loser discarded vote (similar to the 4,000 votes in
the Gray example) and the vote by Mrs. Clinton there
may be described as a winner wasted vote (similar to
the 6,000 votes in the Gray example). The candidates’
votes were both tabulated to discard the vote by
Mr. Trump at the state level and then to eventually

11
discard the vote by Mrs. Clinton at the national level.
The petitioners’ votes, among countless others, were
unquestionably also counted only for the purpose of
being discarded, in brazen violation of the precepts
of Gray.
The 2016 election rendered “live” the controversy
that was prophesied about in Evenwel. Having also
ignored the warnings from decades before in Gray,
the Congress negligently careened into the foreseeable
accident of American history.
Although the petitioners did not compute the number
of discarded votes nationwide, they should be heard to
claim that their individual votes were nonetheless
discarded because Congress tallied only the electoral
votes that were tabulated as state bloc units. It is
important to note that the discarded votes are not
limited to only the D votes because many R votes were
also discarded. The R voters in the other blue states
were also batched into other bloc units. See 63a (“. . .
Republicans in San Francisco and Democrats in
Corpus Christi, whose votes are currently worthless”).
Computing the electoral tabulation is strange because
the president “can win with fewer votes, some states
matter more than others, [and] some votes matter
more than others . . .” (65a). The electoral college
unconstitutionally applies the weighting of votes,
including “wasted votes” that are also discarded
en masse. See Gill v. Whitford, 585 U.S. ___, 138 S. Ct.
1916 (2018).
If the goal is to compute the worthy votes to be
determined by those votes that are counted to determine the electoral majority, that would leave only
those R votes in the red states that were not discarded
and not also wasted. The basic formula may be posited

12
as follows: Worthy votes = Total votes - Worthless
votes (loser discarded + winner wasted). The voting
majority may always be worthless and outnumbered
by the voting minority in all electoral elections. The
Certification that discarded the petitioners’ majority
votes should be reviewed and reversed.
Historical Context
In Evenwel, this Court noted the legal importance
of constitutional history in order to understand the
electoral college. Evenwel, 136 S. Ct. at 1127 (“We
begin with constitutional history”). The constitutional
history is also summarized below.
As expressed in the constitutional preamble (30a),
the purpose of the electoral college was to promote a
“more perfect Union,” as an inclusive mandate under
the Great Compromise in order for the southern states
to ratify the Constitution. Under the initial provisions
of Article II (Section 1) and the 12th amendment of
1804 (30a-33a), the electors were appointed as proxies
for the “sovereign states” to vote for the president.
Each state was allocated two additional electors to
correspond to the senators regardless of population.
Evenwel, 136 S. Ct. at 1130.
Section 15 of the Statute empowers Congress to
“concurrently decide” and to “announce the decision of
the questions submitted” with respect to the electoral
tally (36a). The Statute apparently derives from the
Presidential Electoral Law in 1868 and the General
Election Law in 1872. (The 1948 Statute probably
descends from these ancestral statutes that may be
currently archived in parchment format).
The United States purportedly became “one people
and one country” after the Civil War. Texas v. White,
74 U.S. 700, 721, 13 S. Ct. 1, 7 (1869). The electors

13
nonetheless continued to vote on behalf of the
“sovereign states” even after the United States became
the “union of states.” See McPherson v. Blacker, 146
U.S. 1, 27, 13 S. Ct. 1,7 (1892). The import of Texas
and McPherson remain contradictory because the
electors continued to vote on behalf of the sovereign
states in the new union of states. The Civil War
had terminated any confederate claims. Texas. The
vestigial role of the “faithless electors” remained
strained. Ray v. Blair, 343 U.S. 214, 72 S. Ct. 654
(1952). Neither the states nor any party electors have
retained any compulsory obligation to vote according
to the combined import of both Texas and Ray. The
elected electors pledged to their party such that the
founding requirements of legislative appointments
were later abandoned. Ray.
The constitution is known to have been also
amended after the Civil War, by the 13th amendment
in 1865, the 14th amendment in 1868 and the 15th
amendment in 1870. These Civil War amendments
created a “new structure of law that emerged in the
post Civil War era.” Mitchum v. Foster, 407 U.S. 225,
239, 92 S. Ct. 2151 (1972).
The ensuing suffrage amendments compounded the
constitutional alteration even further, as was noted in
Gray, 372 U.S. at 376, 83 S. Ct. at 806 (footnote #8):
. . . Hamilton expressed the philosophy
behind the electoral college in the Federalist
No. 68 [quotations omitted]. Passage of the
Fifteenth, Seventeenth, and Nineteenth Amendment shows that this conception of political
equality belongs to a bygone day, and should
not be considered in determining what the
Equal Protection Clause of the Fourteenth
Amendment requires in statewide elections.

14
The terminology of “bygone” (noting the idiomatic
expression “let bygones be bygone”) confirms that the
electoral college is obsolete. Gray declared that the
electoral system as envisioned by Alexander Hamilton
became essentially obsolete under the 14th Amendment. It is important to also note that the majority of
the population has resided in urbanized areas since
the 1920s (53a-60a).
The fact that presidential elections never ceased to
be certified under the 1948 Statute cannot result in
Gray having been over-ruled by the Congress. The
congressional tallies after Gray was decided in 1963
were legally dubious. The fact that Gray was essentially ignored for many decades cannot render the
electoral tallies valid. The Congress repeated the chronic
mistake yet again even after this Court clarified less
than a year before the Certification that Gray had been
correctly decided. Evenwel, 136 S. Ct. at 1130. Congressional defiance is confirmed by the CRS publications that omit to cite any judicial precedents. The
Statute arises from the “bygone” federalist paper
that the Supreme Court had declared “should not be
considered” in modern elections. Gray (footnote #8).
The Congress was never empowered to “concurrently decide” any legal “declaration” under the cited
pretext of the Statute. The broad power to decide “all
Cases, in Law and Equity, arising under the
Constitution, the Laws of the United States … (31a) is
exclusively judicial. The Certification unquestionably
violated the foundational purpose of the separation of
powers under Article III. See Marbury v. Madison, 5
U.S. 137 (1803).

15
The Supersession Doctrine
The suffrage amendments repeat four times that
“[t]he right of citizens of the United States to vote . . .
shall not be denied or abridged by the United States
. . .”. This repetitious refrain was expressed in the
15th amendment (1870)(for persons “of race, color or
previous condition of servitude”), in the 20th amendment (1920)(“on account of sex”), in the 24th amendment
(1964) (“by reason of failure to pay any poll or other
tax”), and in the 26th amendment (1971)(for “persons
eighteen years or older”). These suffrage amendments
culminated with universal suffrage for all citizens over
the age of eighteen. The suffrage amendments may be
construed to prohibit the United States from abridging
the individual right to vote in all elections.
The notion that there remains some unique exception
for presidential elections is contradicted by the provisions of the 24th amendment (Section 1), as follows:
The rights of the citizens of the United States
to vote in any primary or other election for
President or Vice President, for electors for
President or Vice President, or for Senator or
Representative in Congress, shall not be
denied or abridged by the United States or any
State by reason of failure to pay any poll tax
or other tax.
Basic principles of constitutional construction require
that “the election process must pass muster against
the charges of discrimination or abridgment of the
right to vote.” Moore v. Ogilvie, 394 U.S. 814, 818, 89
S. Ct. 1493, 1496 (1969). In Williams v. Rhodes, 393
U.S. 23, 89 S. Ct. 5 (1968), this Court clarified that the
electoral provisions cannot be construed to “impose
burdens on the right to vote, where such burdens are

16
expressly prohibited in other constitutional provisions.” Rhodes, 393 U.S. at 29, 89 S. Ct. at 10. The
electoral provisions “are always subject to the limitation that may not be exercised in a way that violates
other specific provisions of the Constitution.” Id. The
24th amendment should be construed to apply to
presidential elections consistently with the rationale
of Gray.
The 24th amendment prohibits any governmental
interference with “the right of qualified voters . . . to
cast their votes effectively.” Rhodes, supra, 393 U.S. at
29. The 24th amendment should be construed to avoid
the abridgment of the right to vote, at the time in
context of removing the poll tax impediment, in
presidential elections. If the 24th amendment is
construed with the 26th amendment, then citizens
over the age of 18 are expressly entitled to vote directly
in presidential elections.
The two amendments interpreted together could be
broadly construed to provide as follows: “The rights of
the citizens of the United States (over the age of
eighteen) to vote in any . . . election for President or
Vice President . . . shall not be denied or abridged by
the United States . . .” (The technical reference to
electors in the 24th amendment should not be
construed to have revalidated the bygone status of the
electoral college, since the Congress had proposed the
24th amendment in 1962 – before Gray – even though
the nationwide ratification occurred in 1964 – after
Gray).
The 24th amendment cannot be reasonably construed to allow the vestigial electors to nullify the
votes of the majority of the citizens without also
violating the precepts of Gray (and Evenwel). The
electoral process cannot be defended on the grounds

17
that the voting is initially accessible if the ultimate
tally disenfranchises the majority of the casted votes.
Gray expressly rejected the defense that the voters
were individually allowed to vote when the county unit
counting system ultimately caused the “end result” of
voter dilution. Gray, 372 U.S. at 379, 83 S. Ct. at 808.
The initial electoral provisions required the electors
to vote for the states when “the slave counted for only
three-fifths of a person for purposes of the apportionment of House seats.” Evenwel, 136 S. Ct. at 1146.
The electoral system was integrally tied to the “power
politics” of slavery that was later abolished by the
13th amendment. Id. See 62a (“The Electoral College,
which is written into the Constitution, is more than
just a vestige of the founding era; it is a living symbol
of America’s original sin”).
The constitutional provision referencing only “male
citizens” or even the “three-fifths of all other Persons”
(Article I, Section 2) obviously do not remain currently
effective. Evenwel, 136 S. Ct. at 1149, second footnote
# 7 (“Needless to say, the reference in this provision
to ‘male inhabitants . . . being twenty-one years of age’
has been superseded by the Nineteenth and TwentySixth Amendments”). Evenwel expressed agreement
with the rationale of this supersession doctrine
consistent with Gray’s declaratory clarification about
the “bygone” status of the electoral college. The 26th
amendment, that was enacted over one century after
the Civil War, unquestionably expresses the modern
mandate of universal suffrage.
In the event that these footnoted points in Gray (at
footnote #8) and Evenwel (at second footnote # 7) were
construed as mere dicta, the Congress was still never
free to abrogate any judicial powers. See Federalist
Paper No. 78. Declaratory relief is reserved as the

18
judicial prerogative to render final judgments. 28
U.S.C. § 2201(a).
The notion that the constitution must be expressly
amended again necessarily presupposes that the
supersession doctrine does not apply. (Only the 21st
amendment “hereby repealed” the 18th amendment).
Principles of constitutional construction require a
review of the most recent amendments in order to
consider whether the electoral provisions have been
implicitly superseded. The Certification turned the
clock back to “a bygone day” because the Congress
systemically failed to heed this Court’s 1963 decision
despite the ensuing clarification in 2016 that Gray had
been correctly decided. The Certification was erroneous because Congress is institutionally incapacitated
from deciding any legal controversy under Article III.
Other Controlling Standards
In Shelby County, Alabama v. Holder, 570 U.S. 529,
133 S. Ct. 2612 (2013), this Court redefined the curent
historic relationship between the federal government
and the various states to be as follows: “. . . our Nation
was and is a union of States, equal in power, dignity
and authority . . . [that is] . . . essential to the
harmonious operation of the scheme upon which the
republic was organized” . . . [and] . . . the “allocation of
powers in our federal system preserves the integrity,
dignity, and residual sovereignty of the States.” Shelby,
133 S. Ct. at 2623 (quotations omitted). The electoral
college cannot possibly be construed to comply with
Shelby’s proscription against the favoritism towards
the very few swing states. It is not possible to reconcile
the mal-apportioned allocation of the states’ electors
as complying with any equality of power among the
voting jurisdictions under Shelby. Even if the malapportioned senators can remain justified in order to

19
prevent the “large States from outvoting the small
States” (Evenwel, 136 S. Ct. at 1138), the electoral
college “allocation plainly violates one person, one vote”
(Evenwel, 136 S. Ct. at 1144). It is difficult to understand how “letting a few close states decide a close
national election” (52a) comports with Shelby.
Assuming arguendo that the only applicable legal
standard was that the electoral system was required
to comply with a “high standard of justice and common
sense” – Karcher v. Daggett 462 U.S. 725, 730, 103
S. Ct. 2653, 2658 (1983) – then the electoral college
miserably fails that alternative test. See Ray, 343
U.S. at 233 (dissenting opinion – the electoral college
“is a mystifying and distorting factor in presidential
elections, which may resolve a popular defeat in an
electoral victory . . . it is open to local corruption and
manipulation . . . [and] . . . elevate[s] the perversion of
the forefathers’ plan into a constitutional principle”).
Even the dissenting defense of the electoral college
insisted upon the “‘absence of arbitrariness in end
result.” Gray, 372 U.S. at 384, 83 S. Ct. at 811.
The Import of Bush v. Gore
After the recount effort by the Gore campaign in
Florida, this Court rendered a per curiam decision.
See Bush v. Palm Beach County Canvassing Board,
531 U.S. 70, 121 S. Ct. 471 (2000)(“Bush I”)(remand
to Florida Supreme Court with direction to clarify
interpretation of the “safe harbor” provisions of
Title 3); Bush v. Gore, 531 U.S. 1046, 121 S. Ct. 512,
(2000)(“Bush II”)(stayed recount and granted certiorari);
and Bush v. Gore, 531 U.S. 98, 121 S. Ct. 525 (2000)
(“Bush III”)(manual recount was not appropriate
remedy to rectify arbitrary differences among the
disparate standards of the various counties in Florida).

20
The margin of electoral victory in Florida initially
amounted to only “1,784 votes for Governor Bush.”
Bush I, 531 U.S. at 101, 121 S. Ct. at 527-528. Florida
pivoted the 2000 presidential election based on a
miniscule number of voters in one singular state that
was fraught with voting irregularities. The finding in
Bush II that the recount in Florida could not be completed due to differences among the various counties
establishes that the electoral college is inherently
prone to arbitrary outcomes. If the recount efforts in
Florida had been allowed to proceed, the unpredicted
outcome there was “not a recipe for producing election
results that have the public acceptance democratic
stability requires.” Bush II, 531 U.S. at 1047, 121
S. Ct. at 512. Bush II expressed the rationale for
rejecting state recounts due to arbitrary differences
among various counties, even before Shelby (that was
decided over a decade later) required more equality
among the states.
Bush III confirms that the “Constitution’s design
[was] to leave the selection of the President to the
people . . .”. 531 U.S. at 98, 121.Ct. at 525. See Oregon
v. Mitchell, 400 U.S. 112, 91 S. Ct. 260 (1970). The
meaning of “We the People” that is expressed in the
constitutional preamble should be construed to comply
with the overall “design” of the 24th amendment and
the 26th amendment. The pronouncement that “the
people” should be allowed to vote for their presidents
supports the rationale that electors should not be
permitted to nullify their votes.
The electors voted for presidents when voting rights
were historically limited to a very restrictive class of
persons. Evenwel, 136 S. Ct. at 1130. The framers’
concept of voting rights in the electoral college (as
expressed in the Federalist Paper No. 68) no longer

21
comports with the ensuing “design” of the suffrage
amendments. See Gray, 372 U.S. at 381, 83 S. Ct. at
381 (“The conception of political equality from the
Declaration of Independence, to Lincoln’s Gettysburg
Address, to the Fifteenth, Seventeen, and Nineteenth
Amendments can mean only one thing – one person,
one vote”). The “people” are not currently incapacitated from voting directly and no longer require any
proxy electors to vote on their behalf.
Congressional Abuse
The Certification’s disregard of prior judicial precedents constitutes congressional misfeasance. In Plaut
v. Spendthrift Farm, Inc., 514 U.S. 211, 115 S. Ct. 1477
(1995), this Court clarified that the Congress cannot
retroactively reverse any adjudicated decision. In INS
v. Chadha, 462 U.S. 919, 103 S. Ct. 2764 (1983), the
house veto operated as a voidable nullification of the
agency decision to suspend deportation. See also concurring opinion in Chadha (congressional veto of agency
decision was judicial order that violated separation of
powers).
The Certification amounted to the essential equivalent of a “legislative abrogation” of Gray that was
recently recited in Evenwel. See Plaut, 514 U.S. at
230, 115 S. Ct. at 1447 (“The issue here is not the
validity or even the source of the legal rule that
produced the Article III judgments, but rather immunity from legislative abrogation of those judgments
themselves”). This Court’s condemnation of “legislative
abrogation” in Plaut clearly comports with the framers’
criticism of legislative bills of attainder. United States
v. Brown, 381 U.S. 437, 441, 85 S. Ct. 1707, 1711
(1965)(legislative punishment prohibited as pains and
penalties under Section 9 of Article I). The Federalist
Papers expressed the foundational purpose of the

22
separation of powers, in part to protect the people from
legislative tyranny that had historically punished “the
right to vote . . .” Brown, 381 U.S. at 462, 85 S. Ct. at
1722 (footnote # 40, quoting Federalist Paper # 78).
The Certification abrogated the judicial power to
“concurrently decide” (36a) the voting rights of the
petitioners by invoking the same constitution that the
Congress offensively violated.
The Certification entailed a “particular proceeding
before another tribunal [that] was truly judicial.”
DC Court of Appeals v. Feldman, 460 U.S. 462, 103 S.
Ct. 1303, footnote # 13 (1983). Substance over form
determines whether another tribunal is judicial in
nature. Id. Reviewing the congressional journal is
appropriate to consider whether Congress abrogated
judicial powers. Kilbourn v. Thompson, 103 U.S. 168
(1880)(congressional invocation of “the laws and the
Constitution of the United States” was not justified as
a legal basis for contempt order found to be void due to
violating the constitutional separation of powers).
Justiciability Issues
The petitioners have a “personal stake” in constitutionally avoiding having their votes “wrongfully denied,
debased or diluted” in the electoral college. Evenwel,
136 S. Ct. at 1135. The existence of a justiciable controversy may be determined by whether the winning
candidate was determined by the majority of the bloc
units instead of by the individual votes. See Evenwel,
136 S. Ct. at 1135. There is a presumptive per-se constitutional injury that should require no proof beyond
the actuality of voter nullification. Reynolds v. Sims,
377 U.S. 533, 84 S. Ct. 1362 (1964)(“To the extent
that a citizens’ right to vote is debased, he is that much
less of a citizen . . .”). But for the congressional
Certification that tallied only the votes by the electors,

23
the popular vote would have determined the 2016
presidential election. Questions of causation and
injury may be legally resolved under the doctrine of
res ipsa loquitor. See Johnson v. U.S, 333 U.S. 46, 49,
68 S. Ct. 391, 392 (1948)(“The rule only deals with permissible inferences from unexplained events”).
Unlike Gill, the remedy requested by the injured
voter-petitioners sub judice is to credit nun pro tunc
the nationwide popular vote that has already been
tabulated for the presidential election in 2016, or, in
the alternative, for an advanced declaration for the
2020 election. Unlike the gerrymandering situation,
the “one vote rule is relatively easy to administer as
a matter of math.” Rucho v. Common Cause, 588
U.S. __ (2019). In Rucho, this Court recently reiterated the time tested “idea that each vote must carry
equal weight” as though to again agree with Gray.
The 2016 presidential election should not be deemed
to be legally moot. Moore, 394 U.S. at 816 (“But while
the . . . election is over . . . the problem is . . . capable
of repetition yet evading review . . . The need for its
resolution thus reflects a continuing controversy in the
federal-state area . . .”). (The verbal concession by the
Clinton campaign may be ineffective absent any filed
writing under 3 U.S.C. § 20). The Statute “remains in
force” and the electoral “practice is deeply rooted and
long standing.” Gray, 372 U.S. at 376, 83 S. Ct. at 806.
As to the 2016 election, the within petition for alternative review under Rule 20 raises legal objections as
to the subject matter jurisdiction of the Congress. See
FRCP 60(b)(4)(subject matter jurisdiction objections
may be raised at any time). This petition should not
be deemed to be untimely in the absence of any time
limits under Rule 20.

24
This Court already declared in Gray many decades
ago that the underlying purpose of the electoral college
(as expressed in Federalist Paper No. 68) was historically obsolete. The Supreme Court is not an academic
institution that publishes advisory decisions, only
to be ignored by the Congress as though Gray and
Evenwel declared legal abstractions. No judicial deference is required after the Congress misapplied constitutional law under the pretext that the Statute
empowers the usurpation of decisive declarations that
are contrary to the import of prior precedents decided
by the Supreme Court.
Procedural Issues
Appeal Exceptions
Since Congress has historically refrained from adjudicating legal controversies (for the reasons explained
in Plaut), there is understandably no known precedent
for this application. Congress has applied the 1948
Statute as though the electoral provisions from before
the Civil War remained effective, despite the contrary
import of the ensuing decisions by the Supreme Court.
Congress empowering itself under the antiquated Statute
to decide that the leader of the free world can be elected
by a minority of nationwide voters is extraordinary.
This petition amply qualifies for exceptional appeal
review. See Section 2 of Article III (“. . . the supreme
Court shall have appellate jurisdiction, both as to
Law and Fact, with such Exceptions, and under such
regulations as the Congress shall make”). Exceptional
appeals are contemplated under 28 U.S.C. § 1291
“where a direct review may be had in the Supreme
Court.” See Nixon.

25
Although Section 1291 ordinarily applies to direct
review of interlocutory appeals from the district
courts, exceptional cases may be subject to “direct
review” when presidential problems also implicate
another constitutional crisis in the separation of
powers. See Nixon, supra. Section 1291 imposes no
known restriction to direct review by the Supreme
Court, that is also contemplated in the exceptional
catch all provision of Section 1651(a) (or the AWA).
The AWA may be construed to encompass the
possibility of direct review of the Certification under
Section 1291, both of which are encompassed in Title
28. Under the doctrine of in paria materea, different
provisions of the same statute may be construed
together in order to determine jurisdiction. See
Christianson v. Colt Industries, 486 U.S. 800, 108 S. Ct.
2166 (1988). The AWA should not be construed to
preclude “direct review” of the Certification under
Section 1291. The Congressional declaration amounted
to the essential equivalent of a lower court order that
should not evade appeal review.
The AWA is expressly listed as one among other
procedural means by which review may be obtained
under limited exceptions to the general rule against
appeal review. See 8 U.S.C. § 1252(a)(2)(a). Although
Title 8 does not express the technical terminology of
“appeal writ,” Section 1252 may be construed as
approving of the AWA as the jurisdictional basis for
similar exceptional appeal review in the context of the
Statute. In Chadha, appeal review was possible in the
context of the administrative process for deportations.
See 8 U.S.C. § 1252(D)(“Nothing . . . which limits
or eliminates judicial review, shall be construed as
precluding review of constitutional claims or questions

26
of law raised upon a petition for review filed with an
appropriate court of appeals . . .”).
Judicial appeal review is generally allowed when
there is any abuse of discretion by administrative
agencies (5 U.S.C. § 706) and also from any declaratory
judgment that is deemed to be final (28 U.S.C.
§ 2201(a)). See also 28 U.S.C. § 2254(d)(1-2)(appeal
exception allowed where state court decision denying
habeas corpus “resulted in a decision that was contrary to, or involved an unreasonably application of,
clearly established Federal law, as determined by
the Supreme Court of the United States . . .”). The
congressional failure to provide for any recourse under
the Statute only confirms the legislative tyranny that
the Congress agrees should not preclude the requested
review in similar situations when precluding appeals
is offensive to due process.
Rule 20
This petition amply satisfies the three part test of
Rule 20 that (1) “that the writ will be in aid of the
Court’s appellate jurisdiction,” (2) that “exceptional
circumstances warrant the exercise of this Court’s discretionary powers” and (3) that “adequate relief cannot
be obtained in any other form or from any other court.”
Any “extraordinary writ” under the AWA may be “sparingly exercised” based on upon the most extraordinary
combination of factors, including the nationwide nature
of the dispute, the absence of any material factual
controversy, the established separation of powers problem, when alternative recourse is elusive, and when
the case is clearly proved. See Colorado v. Kansas, 320
U.S. 383, 64 S. Ct. 176 (1943). Cf. Kansas v. Nebraska,
135 S. Ct. 1042 (2015)(petition under Rule 17 may be
denied when record in environmental river disputes is
complicated).

27
(1) “Appellate Jurisdiction”
The Supreme Court has the exclusive jurisdiction to
over-rule prior precedents that the Congress is constitutionally disempowered from retroactively amending.
See Patterson v. Mc. Lean Credit Union, 491 U.S. 164,
109 S. Ct. 2363 (1989). There is obviously no statutory
provision that would expressly authorize any appeal
review from any quasi judicial order rendered by the
Congress because any such provision would necessarily presuppose the prohibited abrogation. See Plaut.
Accordingly, Section 15 of the Statute that authorizes
the Congress to “concurrently decide” presidential
elections (36a), taken together with the conspicuous
absence of any other provision that should contemplate judicial review under the Statute, are the same
reasons why this Court may consider exercising
the discretionary power to grant the requested leave
under Rule 20. See also Rule 11 of the Supreme Court
rules (appeal review may occur before final judgment
in the courts of appeals “. . . upon a showing that the
case is of such imperative public importance as to
justify deviation from normal appellate practice . . .”).
It is not procedurally possible to appeal from any quasi
judicial order that was rendered by any non-judicial
tribunal (outside the agency context) unless this Court
grants the exceptional leave that is applied for. See
Feldman. The appeal writ under the AWA (incorporated into Rule 20) is reserved for extraordinary
situations when technical review is not otherwise possible. See also Power versus discretion: Extraordinary
relief and the Supreme Court, by Steve Vladeck
(Scotusblog, 12/20/2018). Any legal declaration that
escapes judicial review is profoundly offensive to due
process.

28
(2) “Exceptional Circumstances”
This petition entails “exceptional circumstances
amounting to a judicial usurpation of power” by
Congress. See Kerr v. United States District Court,
426 U.S. 394, 96 S. Ct. 2119 (1976). The petitioners
have no alternative recourse from the Certification
despite the legal presumption against the absence of
any appeal review. McNary v. Haitian Refugees Ctr.,
Inc., 498 U.S. 480, 111 S. Ct. 888 (1991). There cannot
be any factual controversy about the conceded
electoral tally that Congress certified in the
Certification. The national tracking of the popular
vote and the unit allocation of the electors may be a
matter of judicial notice. Fed. R. Evid. 201(b)(2)(facts
that “can be accurately and readily determined from
sources whose accuracy cannot reasonably be
questioned” may be judicially noticed). This petition
may be readily decided within the analogous context of
summary judgment. Davidson v. City of Cranston, 188
F. Supp 3d, reversed on other grounds, 837 F.3d 135
(1st Cir. 2016) (summary judgment to the plaintiff in
gerrymandering voting case reversed by granting
summary judgment to the defendant). The petitioners
do not challenge the Certification’s findings of fact
about the electoral tally, confining the legal arguments only to the congressional conclusions of law.
The simple questions for review are entirely legal and
based on an undisputed record of the annexed transcript of the congressional journal. Moreover, there is
public consensus about ending the electoral college
among the editorial boards of leading newspapers,
including the New York Times (61a) and the LA Times
(75a).

29
(3) “Alternative Recourse”
The electoral college presents a unique conundrum
that evades any traditional legal review. Williams v.
Virginia Board of Elections, 288 F. Supp 622, 628,
affirmed 393 US 320, 89 S. Ct. 555 (1969)(the injustice
of the electoral college “cannot be corrected by suit,
especially one in which but a single State is impleaded”).
The electoral college is an amorphous entity without
any known location. The electors cannot be readily
named or served, except when they meet only once
every four years in various state capitals throughout
the country.
There would be no monetary damages for any civil
rights misconduct, pursuant to the provisions of 28
U.S.C. § 1346 and/or 42 U.S.C. § 1983. The Voting
Rights Act (42 U.S.C. § 1973) is limited to protecting
the rights of voting minorities. See Shelby. The electoral college cannot be resolved by lawsuits between
the states. State of Delaware v. State of New York, 385
U.S. 895, 87 S. Ct. 198 (1966). Unlike the situations
in Gray and Evenwel, state governors cannot be
liable for judicial fiats by the Congress. See Williams.
Congressional members are (and should be) immune.
Voting claims by (or against) defecting electors are not
clearly cognizable. See Ray.
The timing logistics of any legal filing are nearly
impossible. See Parker v. Winter, 645 F. App’x 632
(10th Cir. 2016) (“Challenges to election laws are
one of the quintessential categories of cases capable of
repetition yet evading review because litigation has
only a few months before the remedy sought is rendered
impossible by the occurrence of the relevant election”).

30
The citizens vote in November, the electors vote in
December, and the president is inaugurated in January,
thus severely constraining the time period for any
viable legal filing. Moreover, any district court filing
presupposes the meritorious basis of any cognizable
cause of action that is filed by voters with the alleged
standing against immunized defendants. Insofar as
the Congress essentially never renders judicial decisions due to the separation of powers (see Plaut), the
requested review would entail an appellate function
for which the district lacks any known jurisdiction.
Appeal writs are reserved for extremely rare
separation of powers problems that should not evade
appeal or other plenary review when there is no known
recourse. See Kerr. Rule 20 may provide the only
exceptional procedural basis for any legal review,
while dispensing with ordinary liability problems (and
hopefully excusing difficult standing requirements).
Absent any viable challenge in any district court, Rule
14 cannot provide any means of review unless state
governors are sued. Williams. It may be impossible to
let bygones be bygone if presidential elections cannot
procedurally escape the confines of 18th century law.
Rule 20 may operate as a saving grace from this
procedural trap of the Statute.
Constitutional democracy is a legal fiction if voting
precedents are ignored. Brown, 381 U.S. 462, footnote
# 40, citing Federalist Paper No. 78 (“. . . all the
reservations of particular rights or privileges would
amount to nothing” absent judicial remediation). The
congressional abrogation of judicial powers under the
antiquated Statute should not be tolerated. See Rucho
(citing Marbury).

31
Remedial Relief
Any legislative infraction requires the judicial
branch to engage in the kind of check and balance that
is required to maintain constitutional democracy.
Unlike the Federalist Paper No. 68, the framers’ foundational purpose that was expressed in the Federalist
Paper No. 78 remains currently valid. Brown, 381
U.S. at 462, 85 S. Ct. at 1722, footnote # 40 (quoting
Federalist Paper No. 78). Even if the Statute was
construed to have been implicitly approved in Bush I,
II and III, Gray was cited with approval in Evenwel.
As of March 18, 1963, the electoral college was
historically obsolete because this Court declared its
bygone status as an immutable finding about American
history. In the event this Court disagrees with this
posited interpretation of Gray, that is arguably reinforced by the import of Evenwel, then it is important
to note that Gray was decided in 1963 before the later
suffrage amendments in 1964 and 1971. This Court
previously addressed the problematic basis for the
electoral college at least twice before this petition,
including in Evenwel that had also articulated the
supersession doctrine.
In North Carolina v. Sandra Little Covington, 581
U.S. ___, 137 S. Ct. 1624 (2017), this Court remanded
and reversed the requested gerrymandering remedy of
a special election in order to avoid the “likely disruption to the ordinary process of governance . . .”. Accord,
Marks v. Stinson, 19 F.3d 873 (3rd Cir 1994) (remand
to require showing that losing candidate would have
won but for the election irregularities). The ultimate
goal of promoting “democratic stability” should be considered sufficiently important to justify final appeal
review. See Bush II, supra.

32
The application of the direct vote may preserve the
democratic process despite any foreign manipulation
that did not clearly impact upon the popular tally
in 2016. If this Court were to vacate the offending
Statute, that would expeditiously remove what may be
described as the proverbial joker in the deck of future
presidential elections. The petitioner voters deserve
the peace of mind of resting assured that the presidents and vice presidents they vote for never have to
again gamble upon wild card electoral events in a few
swing states.
As to the 2016 election, assuming that it remains
legally live, the requested reversal may be compared
to the sua sponte correction of any administrative
mistake by a non judicial tribunal that was legally void
nunc pro tunc. See FRCP 60(a) & 60(b)(4). The decisions
in Gray and Evenwel may be enforced to retroactively
remedy congressional contempt. Plaut. Any acclimation to the illegal status quo does not defeat the
repatriation remedy in the context of abduction cases.
Abbott v. Abbott, 560 U.S. 1, 130 S. Ct. 1963 (2010) and
Chafin v. Chafin, 568 U.S. 165, 133 S. Ct. 1017 (2013).
Other high courts have recently ordered the removal
of their elected leaders in Kenya, South Korea, and
Brazil. The decisions by other high courts may have
persuasive application. See Lozano v. Alvarez, 572
U.S.1, 134 S. Ct. 1224 (2014). The legitimacy of democratic elections should not be trivialized, particularly
when the Congress has historically ignored Supreme
Court precedents.
A decision by this Court to vacate the Statute “by
fiat” (75a) is historically overdue and appropriate in
this very unique context.

33
Post-Script Summary
The Supreme Court’s historic protection of voting
rights cannot be separated from the underlying ideals
of democracy. As this Court previously stated in Moore
v. Ogilvie, 394 U.S. 814, 815, 89 S. Ct. 1493, 1494 (1969):
The right to vote freely for the candidate of
one’s choice is of the essence of a democratic
society, and any restrictions on that right
strike at the heart of representative government. And the right of suffrage can be denied
by a debasement or dilution of the weight of a
citizen’s vote just as effectively as by wholly
prohibiting the free exercise of the franchise.
Although the framers’ goals were laudable in creating the founding framework for the election of the first
president, the Civil War Amendments and the ensuing
suffrage amendments profoundly changed the constitution after the 18th century. Over the course of
decades after the 1948 Statute, this Court rendered
controlling findings about the history of the electoral
college in the dogmatic decisions of Gray and then
Evenwel. Congress, by issuing the Certification, erroneously ignored the historic import of this important
jurisprudence as well as the suffrage amendments.
There is no alternative recourse other than to appeal
directly from the congressional findings that clearly
reveal severe abuse of judicial powers. See Bivens v.
Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388, 392, 91 S. Ct. 1999, 2002,
403 U.S. 388, 392 (1971). The 2016 election should
not be moot and/or the 2020 election should not be
premature. The Certification was error as matter of
established law and constitutional history. This Court
remains currently empowered to enforce the democratic ideals that founded the “more perfect Union.”

34
CONCLUSION
For all of the foregoing reasons, the petitioners
respectfully request that this Court grant their extraordinary petition for exceptional appeal review from
the congressional certification, dated January 6, 2017,
pursuant to Rule 20 (Part 4) of the Supreme Court
rules and the All Writs Act, and order such other and
further relief as may be just and proper.
Respectfully submitted,
WILLIAM D. RUSSIELLO
Attorney for Petitioners
45 Essex Street
Suite 3 West
Hackensack, New Jersey 07601
(201) 342-0696
wrussiello@cs.com
ANN L. DETIERE-RUSSIELLO
Of Counsel and on the Brief
September 10, 2019

APPENDIX

1a
UNITED STATES OF AMERICA
CONGRESSIONAL RECORD
PROCEEDINGS AND DEBATES OF THE
115th CONGRESS, FIRST SESSION
Vol. 163
WASHINGTON, FRIDAY, JANUARY 6, 2017
No. 4
House of Representatives
The House met at noon and was called to order by
the Speaker.
————
PRAYER
The Chaplain, the Reverend Patrick J. Conroy, offered
the following prayer:
Loving God, we give You thanks for giving us
another day.
We thank You again today for Your divine inspiration, which led to the creation of the Republican
democracy we enjoy today, mindful that our responsibility is to faithfully carry forward this legacy to all
those Americans who will follow us.
By law, the Congress meets this day in joint session
to count the electoral votes for President and Vice
President of the United States. May all who attend to
these proceedings, and those responsible for the management of government, be mindful that something
greater than each and any of us gathered, or affected
by these events, is coming to pass.
Bless our great Nation and those entrusted with
its care throughout this first session of the 115th
Congress, the 226th session of the Supreme Court, and

2a
the imminent administration of the 45th President.
May all, by their actions, remember that we are a
Nation which claims to put our trust in You.
And may all that is done be for Your greater honor
and glory.
Amen.

————
THE JOURNAL

The SPEAKER. The Chair has examined the
Journal of the last day’s proceedings and announces to
the House his approval thereof.
Pursuant to clause 1, rule I, the Journal stands
approved.
————
PLEDGE OF ALLEGIANCE
The SPEAKER. Will the gentleman from North
Carolina (Mr. HOLDING) come forward and lead the
House in the Pledge of Allegiance.
Mr. HOLDING led the Pledge of Allegiance as
follows:
I pledge allegiance to the Flag of the United States
of America, and to the Republic for which it stands,
one nation under God, indivisible, with liberty and
justice for all.
————
APPOINTMENT OF TELLERS ON THE PART OF
THE HOUSE TO COUNT ELECTORAL VOTES
The SPEAKER. Pursuant to Senate Concurrent
Resolution 2, 115th Congress, the Chair appoints as
tellers on the part of the House to count the electoral
votes:

3a
The gentleman from Mississippi (Mr. HARPER) and
The gentleman from Pennsylvania (Mr. BRADY).
————
RECESS
The SPEAKER. Pursuant to clause 12(a) of rule I,
the Chair declares the House in recess until approximately 12:55 p.m. today.
Accordingly (at 12 o’clock and 2 minutes p.m.), the
House stood in recess.
————
 This symbol represents the time of day during the
House proceedings, e.g.,  1407 is 2:07 p.m.
Matter set in this typeface indicates words inserted or
appended, rather than spoken, by a Member of the
House on the floor.
————
 1300
AFTER RECESS
The recess having expired, the House was called to
order by the Speaker at 1 p.m.
————
COUNTING ELECTORAL VOTES—JOINT
SESSION OF THE HOUSE AND SENATE HELD
PURSUANT TO THE PROVISIONS OF SENATE
CONCURRENT RESOLUTION 2
At 1 p.m., the Sergeant at Arms, Paul D. Irving,
announced the Vice President and the Senate of the
United States.

4a
The Senate entered the Hall of the House of
Representatives, headed by the Vice President and the
Secretary of the Senate, the Members and officers of
the House rising to receive them.
The Vice President took his seat as the Presiding
Officer of the joint convention of the two Houses, the
Speaker of the House occupying the chair on his left.
Senators took seats to the right of the rostrum as
prescribed by law.
The joint session was called to order.
The VICE PRESIDENT. Mr. Speaker and Members
of Congress, pursuant to the Constitution and laws
of the United States, the Senate and House of
Representatives are meeting in joint session to verify
the certificates and count the votes of the electors of
the several States for President and Vice President of
the United States.
After ascertainment has been had that the certificates are authentic and correct in form, the tellers will
count and make a list of the votes cast by the electors
of the several States.
The tellers on the part of the two Houses will take
their places at the Clerk’s desk.
The tellers, Senator BLUNT and Senator
KLOBUCHAR on the part of the Senate, and Mr.
HARPER and Mr. BRADY of Pennsylvania on the part
of the House, took their places at the desk.
The VICE PRESIDENT. Without objection, the
tellers will dispense with reading formal portions of
the certificates.
There was no objection.

5a
The VICE PRESIDENT. After ascertaining that
certificates are regular in form and authentic, the
tellers will announce the votes cast by the electors for
each State, beginning with Alabama.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Alabama seems to be
regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 9 votes for President and Michael R.
Pence of the State of Indiana received 9 votes for Vice
President.
————
Mr. McGOVERN. Mr. President, I object to the
certificate from the State of Alabama on the grounds
that the electoral votes were not, under all of the
known circumstances, regularly given and that the
electors were not lawfully certified, especially given
the confirmed and illegal activities engaged in by the
Government of Russia that were designed to interfere
with our election and the widespread violations of
the Voting Rights Act that unlawfully suppressed
thousands of votes in the State of Alabama.
Mr. VICE PRESIDENT. Sections 15 and 17 of title
3 of the United States Code require that any objection
be presented in writing, signed by a Member of the
House of Representatives and a Senator.
Is the objection in writing and signed not only by a
Member of the House of Representatives but also by a
Senator?
Mr. McGOVERN. Mr. President, the objection is in
writing and is signed by a Member of the House of
Representatives but not yet by a Member of the United
States Senate.

6a
Mr. VICE PRESIDENT. In that case, the objection
cannot be entertained.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Alaska seems to be regular in form and authentic, and it appears therefrom
that Donald J. Trump of the State of New York received
3 votes for President and Michael R. Pence of the State
of Indiana received 3 votes for Vice President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Arizona seems
to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 11 votes for President and Michael R.
Pence of the State of Indiana received 11 votes for Vice
President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Arkansas
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 6 votes for President and
Michael R. Pence from the State of Indiana received 6
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of California seems to be
regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 55 votes for President and TIM KAINE
of the Commonwealth of Virginia received 55 votes for
Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Colorado seems to be
regular in form and authentic, and it appears therefrom that Hillary Clinton of the State of New York
received 9 votes for President and TIM KAINE of the

7a
Commonwealth of Virginia received 9 votes for Vice
President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Connecticut
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 7 votes for President and TIM
KAINE of the Commonwealth of Virginia received 7
votes for Vice President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Delaware
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 3 votes for President and TIM
KAINE of the Commonwealth of Virginia received 3
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the District of Columbia seems to
be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 3 votes for President and TIM KAINE of
the Commonwealth of Virginia received 3 votes for
Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Florida seems to be
regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 29 votes for President and Michael R.
Pence of the State of Indiana received 29 votes for Vice
President.

8a
 1315
The VICE PRESIDENT. For what purpose does the
gentleman from Maryland rise?
Mr. RASKIN. Mr. President, I have an objection
because 10 of the 29 electoral votes cast by Florida
were cast by electors not lawfully certified because
they violated Florida’s prohibition against dual office
holding.
The VICE PRESIDENT. Debate is out of order.
Section 15 and 17 of title 3 of the United States Code
requires that any objection presented be in writing,
signed by both a Member of the House of Representatives
and a Senator.
Is the objection in writing and signed not only by the
Member of the House of Representatives, but also by a
Senator?
Mr. RASKIN. It is in writing, Mr. President.
The VICE PRESIDENT. Is it signed by a Senator?
Mr. RASKIN. Not as of yet, Mr. President.
The VICE PRESIDENT. In that case, the objection
cannot be entertained.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Georgia seems
to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 16 votes for President and Michael R.
Pence of the State of Indiana received 16 votes for Vice
President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from Washington rise?

9a
Ms. JAYAPAL. Mr. President, I object to the
certificate from the State of Georgia on the grounds
that the electoral votes were not—
The VICE PRESIDENT. There is no debate. There
is no debate.
Section 15 and 17 of title 3 of the United States
Code requires that any objection be presented in
writing, signed by both a Member of the House of
Representatives and a Senator.
Is the objection in writing and not only signed by the
Member, but by a United States Senator?
Ms. JAYAPAL. Mr. President, even as people waited
hours in Georgia—
The VICE PRESIDENT. There is no debate. There
is no debate.
If there is not one signed by a Senator, the objection
cannot be entertained.
Ms. JAYAPAL. Mr. President, the objection is signed
by a Member of the House, but not yet by a Member of
the Senate.
The VICE PRESIDENT. It is over.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Hawaii
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 3 votes for President, and BERNIE
SANDERS of the State of Vermont received 1 vote for
President, and TIM KAINE of the Commonwealth of
Virginia received 3 votes for Vice President, and
ELIZABETH WARREN Of the Commonwealth of
Massachusetts received 1 vote for Vice President.

10a
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Idaho seems to be
regular in form and authentic, and it appears therefrom that Donald J. Trump of the State of New York
received 4 votes for President and Michael R. Pence of
the State of Indiana received 4 votes for Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Illinois seems to be
regular in form and authentic, and it appears therefrom that Hillary Clinton of the State of New York
received 20 votes for President and TIM KAINE of the
Commonwealth of Virginia received 20 votes for Vice
President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Indiana seems
to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 11 votes for President and Michael R.
Pence of the State of Indiana received 11 votes for Vice
President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Iowa
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 6 votes for President and
Michael R. Pence of the State of Indiana received 6
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Kansas seems to be
regular in form and authentic, and it appears therefrom
that Donald J. Trump of the State of New York received
6 votes for President and Michael R. Pence of the State
of Indiana received 6 votes for Vice President.

11a
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the Commonwealth of Kentucky seems
to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 8 votes for President and Michael R.
Pence of the State of Indiana received 8 votes for Vice
President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Louisiana
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 8 votes for President and
Michael R. Pence of the State of Indiana received 8
votes for Vice President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Maine
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 3 votes for President and Donald J.
Trump of the State of New York received 1 vote for
President and TIM KAINE of the Commonwealth of
Virginia received 3 votes for Vice President and
Michael R. Pence of the State of Indiana received 1
vote for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Maryland seems to be
regular in form and authentic, and it appears therefrom that Hillary Clinton of the State of New York
received 10 votes for President and TIM KAINE of the
Commonwealth of Virginia received 10 votes for Vice
President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the Commonwealth of Massachusetts
seems to be regular in form and authentic, and it

12a
appears therefrom that Hillary Clinton of the State of
New York received 11 votes for President and TIM
KAINE of the Commonwealth of Virginia received 11
votes for Vice President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Michigan seems
to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 16 votes for President and Michael R.
Pence of the State of Indiana received 16 votes for Vice
President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from California rise?
Ms. TEE. Mr. President, I object because people are
horrified by the overwhelming evidence of Russian
interference in our elections.
The VICE PRESIDENT. Section 18, title 3 of the
United States Code prohibits debate in the joint
session.
Section 15 and 17 of title 3 of the U.S. Code requires
any objection be presented in writing, signed by both
a Member of the House and a Member of the Senate.
Is the objection in writing and signed not only by the
Member of the House, but also by a Senator?
Ms. LEE. Mr. President, even with the malfunction
of 87 voting machines at predominantly African—
The VICE PRESIDENT. There is no debate in order.
Ms. LEE. I have grave concerns—
The VICE PRESIDENT. The objection cannot be
entertained.

13a
Ms. LEE. Unfortunately, it is not yet signed by a
Senator.
The VICE PRESIDENT. The Chair is prepared to
proceed with the count.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Minnesota
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 10 votes for President and TIM
KAINE of the Commonwealth of Virginia received 10
votes for Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Mississippi seems to be
regular in form and authentic, and it appears therefrom that Donald J. Trump of the State of New York
received 6 votes for President and Michael R. Pence of
the State of Indiana received 6 votes for Vice President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from Texas rise?
Ms. JACKSON LEE. Mr. President, I object on the
massive voter suppression that is provisional that
denied individual ballots—
The VICE PRESIDENT. Debate is not in order.
Debate is not in order.
The gentlewoman will suspend.
Section 15 and 17 of title 3 of the U.S. Code requires
that any objection be presented in writing and signed
by both the Member of the House of Representatives
and a Senator.
Ms. JACKSON LEE. Mr. President, I have an
objection.

14a
The VICE PRESIDENT. Is it signed by a United
States Senator?
Ms. JACKSON LEE. Not yet. We are seeking a
United States Senator.
The VICE PRESIDENT. Well, in that case, the
objection cannot be entertained.
We will proceed with the count.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Missouri seems to be
regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 10 votes for President and Michael R.
Pence of the State of Indiana received 10 votes for Vice
President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Montana
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 3 votes for President and
Michael R. Pence of the State of Indiana received 3
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Nebraska seems to be
regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 5 votes for President and Michael R.
Pence of the State of Indiana received 5 votes for Vice
President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Nevada seems to be regular in form and authentic, and it appears therefrom
that Hillary Clinton of the State of New York received

15a
6 votes for President and TIM KAINE of the Commonwealth of Virginia received 6 votes for Vice President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of New Hampshire
seems to be regular in form and authentic, and it
appears therefrom that Hillary Clinton of the State of
New York received 4 votes for President and Tim
KAINE of the Commonwealth of Virginia received 4
votes for Vice President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of New
Jersey seems to be regular in form and authentic, and
it appears therefrom that Hillary Clinton of the State
of New York received 14 votes for President and TIM
KAINE of the Commonwealth of Virginia received 14
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of New Mexico seems to
be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 5 votes for President and TIM KAINE of
the Commonwealth of Virginia received 5 votes for
Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of New York seems to be
regular in form and authentic, and it appears therefrom that Hillary Clinton of the State of New York
received 29 votes for President and TIM KAINE of the
Commonwealth of Virginia received 29 votes for Vice
President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of North Carolina
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State

16a
of New York received 15 votes for President and
Michael R. Pence of the State of Indiana received 15
votes for Vice President.
The VICE PRESIDENT. For what purpose does the
gentleman from Arizona rise?
Mr. GRIJALVA. Mr. President, I object to the
certificate from the State of North Carolina based on
violations of the Voting Rights Act and confirmed
hacking by the—
The VICE PRESIDENT. There is no debate in the
joint session.
The Chair has previously ruled that a signature
from a Senator is required. Is there a signature from a
Senator?
Mr. GRIJALVA. There is a signature from the
House of Representatives, myself, and—
The VICE PRESIDENT. The objection cannot be
received without a signature from a Senator.
The tellers will continue the count. Ms. JACKSON
LEE. Mr. President. The VICE PRESIDENT. For
what purpose does the gentlewoman from Texas rise?
Ms. JACKSON LEE. Mr. President, I object to the
15 votes from the State of North Carolina because of
the massive voter suppression and the closing of
voting massive suppression that occurred from African
American—
The VICE PRESIDENT. There is no debate. There
is no debate. There is no debate.
The gentlewoman will suspend.
As the Chair has previously ruled, a signature from
a Senator is required.

17a
Ms. JACKSON LEE. Mr. Vice President, I do have
in writing a signature from myself, not yet a signature
from a Senator.
The VICE PRESIDENT. The objection cannot be
received.
The tellers will continue the count.
 1330
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of North
Dakota seems to be regular in form and authentic, and
it appears therefrom that Donald J. Trump of the
State of New York received 3 votes for President and
Michael R. Pence of the State of Indiana received 3
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Ohio seems to be regular in form and authentic, and it appears therefrom
that Donald J. Trump of the State of New York received
18 votes for President and Michael R. Pence of the
State of Indiana received 18 votes for Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Oklahoma seems to be
regular in form and authentic, and it appears therefrom that Donald J. Trump of the State of New York
received 7 votes for President and Michael R. Pence of
the State of Indiana received 7 votes for Vice President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Oregon seems
to be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 7 votes for President and TIM KAINE of
the Commonwealth of Virginia received 7 votes for
Vice President.

18a
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the Commonwealth
of Pennsylvania seems to be regular in form and
authentic, and it appears therefrom that Donald J.
Trump of the State of New York received 20 votes for
President and Michael R. Pence of the State of Indiana
received 20 votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Rhode Island seems
to be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 4 votes for President and TIM KAINE of
the Commonwealth of Virginia received 4 votes for
Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of South Carolina seems to
be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 9 votes for President and Michael R.
Pence of the State of Indiana received 9 votes for Vice
President.
Ms. JACKSON LEE. Mr. President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from Texas rise?
Ms. JACKSON LEE. Mr. President, I object to the
votes from South Carolina because—
The VICE PRESIDENT. The gentlewoman will
suspend.
As the Chair has previously ruled. there is no debate
in the joint session. As the Chair has previously ruled,
a Senator is required to sign.

19a
Ms. JACKSON LEE. Mr. President, I have it in
writing. I am now seeking a signature from a United
States Senator.
The VICE PRESIDENT. The objection cannot be
received.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of South Dakota
seems to be regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 3 votes for President and Michael R.
Pence of the State of Indiana received 3 votes for Vice
President.
Mr. BRADY of Pennsylvania. Mr. President, the certificate of the electoral vote of the State of Tennessee
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 11 votes for President and
Michael R. Pence of the State of Indiana received 11
votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Texas seems to be
regular in form and authentic, and it appears therefrom that Donald J. Trump of the State of New York
received 36 votes for President, John R. Kasich of
the State of Ohio received 1 vote for President, and
Ron Paul of the State of Texas received 1 vote for
President, and Michael R. Pence of the State of
Indiana received 37 votes for Vice President, and Carly
Fiorina of the Commonwealth of Virginia received 1
vote for Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of Utah seems to be regular
in form and authentic, and it appears therefrom that
Donald J. Trump of the State of New York received 6

20a
votes for President and Michael R. Pence of the State
of Indiana received 6 votes for Vice President.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Vermont seems
to be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 3 votes for President and TIM KAINE of
the Commonwealth of Virginia received 3 votes for
Vice President.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the Commonwealth
of Virginia seems to be regular in form and authentic,
and it appears therefrom that Hillary Clinton of the
State of New York received 13 votes for President and
TIM KAINE of the Commonwealth of Virginia received
13 votes for Vice President.
Senator BLUNT. Mr. President, the certificate of
the electoral vote of the State of Washington seems to
be regular in form and authentic, and it appears
therefrom that Hillary Clinton of the State of New
York received 8 votes for President, Colin Powell of
the Commonwealth of Virginia received 3 votes for
President, and Faith Spotted Eagle of the State of
South Dakota received 1 vote for President, and Tim
KAINE of the Commonwealth of Virginia received 8
votes for Vice President, ELIZABETH WARREN of
the Commonwealth of Massachusetts received 1 vote
for Vice President, MARIA CANTWELL of the State
of Washington received 1 vote for Vice President,
SUSAN COLLINS of the State of Maine received 1
vote for Vice President, and Winona LaDuke of the
State of Minnesota received 1 vote for Vice President.
Mr. HARPER. Mr. President, the certificate of the
electoral vote of the State of West Virginia seems to be

21a
regular in form and authentic, and it appears
therefrom that Donald J. Trump of the State of New
York received 5 votes for President and Michael R.
Pence of the State of Indiana received 5 votes for Vice
President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from California rise?
Ms. LEE. Mr. President, I object on behalf of the
million of Americans, including members of the intelligence community.
The VICE PRESIDENT. As the Chair has previously ruled, debate is prohibited.
As the Chair has previously ruled, a signature from
a Senator is required. The objection cannot be received
unless such a signature is obtained.
Ms. LEE. Mr. President, despite grave concerns of
the intelligence—
The VICE PRESIDENT. The objection cannot be
received.
Senator KLOBUCHAR, continue the tally.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral vote of the State of Wisconsin
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 10 votes for President and
Michael R. Pence of the State of Indiana received 10
votes for Vice President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from Texas rise?
Ms. JACKSON LEE. Mr. President, I object to the
votes from the State of Wisconsin which should not be
legally certified.

22a
The VICE PRESIDENT. The gentlewoman will
suspend.
As the Chair has previously ruled, a signature from
a Senator is required. Is there such a signature?
Ms. JACKSON LEE. Mr. President, I do have a
written document with my objection.
The VICE PRESIDENT. The objection cannot be
received.
We will continue the tally.
Mr. BRADY of Pennsylvania. Mr. President, the
certificate of the electoral vote of the State of Wyoming
seems to be regular in form and authentic, and it
appears therefrom that Donald J. Trump of the State
of New York received 3 votes for President and
Michael R. Pence of the State of Indiana received 3
votes for Vice President.
The VICE PRESIDENT. For what purpose does the
gentlewoman from California rise?
Ms. MAXINE WATERS of California. Mr. President,
I do not wish to debate. I wish to ask: Is there one
United States Senator who will join me in this letter
of objection?
The VICE PRESIDENT. The gentlewoman will
suspend.
The Chair has previously ruled a signature from a
Senator is required. The objection cannot be received.
Members of Congress, the certificates having been
read, the tellers will ascertain and deliver the result to
the President of the Senate.
Senator BLUNT. Mr. President, the undersigned,
ROY BLUNT and AMY KLOBUCHAR, tellers on the

23a
part of the Senate, GREGG HARPER and ROBERT A.
BRADY, tellers on the part of the House of Representatives, report the following as the result of the
ascertainment and counting of the electoral vote for
President and Vice President of the United States for
the term beginning on the 20th day of January 2017.
The tellers delivered to the President of the Senate
the following statement of results:
JOINT SESSION OF CONGRESS FOR THE
COUNTING OF THE ELECTORAL VOTES FOR
PRESIDENT AND VICE PRESIDENT OF THE
UNITED STATES—OFFICIAL TALLY
The undersigned, ROY BLUNT and AMY
KLOBUCHAR tellers on the part of the Senate,
GREGG HARPER and ROBERT A. BRADY tellers on
the part of the House of Representatives, report the
following as the result of the ascertainment and
counting of the electoral vote for President and Vice
President of the United States for the term beginning
on the twentieth day of January, two thousand and
seventeen.

24a

This page was intentionally left blank.

27a
The VICE PRESIDENT. The state of the vote for
President of the United States, as delivered to the
President of the Senate, is as follows:
The whole number of electors appointed to vote for
President of the United States is 538. Within that
whole number, a majority is 270.
The votes for President of the United States are as
follows:
Donald J. Trump of the State of New York has
received 304 votes.
Hillary Clinton of the State of New York has
received 227 votes.
Colin Powell of the Commonwealth of Virginia has
received 3 votes.
John Kasich of the State of Ohio has received 1 vote.
Ron Paul of the State of Texas has received 1 vote.
Bernie Sanders of the State of Vermont has received
1 vote.
Faith Spotted Eagle of the State of South Dakota
has received 1 vote.
The state of the vote for Vice President of the United
States, as delivered to the President of the Senate, is
as follows:
The whole number of electors appointed to vote for
Vice President of the United States is 538. Within that
whole number, a majority is 270.
The votes for Vice President of the United States are
as follows:
Michael R. Pence of the State of Indiana has
received 305 votes.

28a
Tim Kaine of the Commonwealth of Virginia has
received 227 votes.
ANNOUNCEMENT BY THE VICE PRESIDENT
The VICE PRESIDENT. The joint session will be in
order.
The Sergeant at Arms will remove the disturbance
from the gallery.
The joint session will be in order.
Elizabeth Warren of the Commonwealth
Massachusetts has received 2 votes.

of

Maria Cantwell of the State of Washington has
received 1 vote.
Susan Collins of the State of Maine has received 1
vote.
Carly Fiorina of the Commonwealth Of Virginia has
received 1 vote.
ANNOUNCEMENT BY THE VICE PRESIDENT
The VICE PRESIDENT. The Sergeant at Arms will
remove the protestors from the gallery.
The joint session will be in order. Winona LaDuke of
the State of Minnesota has received 1 vote.
This announcement of the state of the vote by the
President of the Senate shall be deemed a sufficient
declaration of the persons elected President and Vice
President of the United States, each for the term
beginning on the 20th day of January 2017 and shall
be entered, together with the list of the votes, on the
Journals of the Senate and House of Representatives.
The purpose of the joint session having concluded,
pursuant to the Senate Concurrent Resolution 2,

29a
115th Congress, the Chair declares the joint session
dissolved.
(Thereupon, at 1 o’clock and 41 minutes p.m., the
joint session of the two Houses of Congress dissolved.)
The SPEAKER. Pursuant to Senate Concurrent
Resolution 2, 115th Congress, the electoral vote will be
spread at large upon the Journal (emphasis supplied).

30a
CONSTITUTIONAL PROVISIONS
Preamble (1787-1789)
We the People of the United States, in Order to form
a more perfect Union, establish Justice, insure domestic
Tranquility, provide for the common defense, promote
the general Welfare, and secure the Blessings of Liberty
to ourselves and our Posterity, do ordain and establish
this Constitution for the United States of America.
Article II, Section 1 (1787-1789)
Each state shall appoint, in such manner as the
Legislature thereof may direct, a number of electors,
equal to the whole number of Senators and Representatives to which the State may be entitled in the Congress:
but no Senator or Representative, or person holding an
office of trust or profit under the United States, shall
be appointed an elector.
The electors shall meet in their respective states,
and vote by ballot for two persons, of whom one at least
shall not be an inhabitant of the same state with
themselves. And they shall make a list of all the persons
voted for, and of the number of votes for each; which
list they shall sign and certify, and transmit sealed to
the seat of the government of the United States,
directed to the President of the Senate. The President
of the Senate shall, in the presence of the Senate and
House of Representatives, open all the certificates,
and the votes shall then be counted. The person having
the greatest number of votes shall be the President,
if such number be a majority of the whole number of
electors appointed; and if there be more than one who
have such majority, and have an equal number of votes,
then the House of Representatives shall immediately
choose by ballot one of them for President; and if no

31a
person have a majority, then from the five highest on
the list the said House shall in like manner choose the
President. But in choosing the President, the votes
shall be taken by States, the representation from each
state having one vote; A quorum for this purpose shall
consist of a member or members from two thirds of the
states, and a majority of all the states shall be necessary to a choice. In every case, after the choice of the
President, the person having the greatest number of
votes of the electors shall be the Vice President. But if
there should remain two or more who have equal
votes, the Senate shall choose from them by ballot the
Vice President.
The Congress may determine the time of choosing
the electors, and the day on which they shall give their
votes; which day shall be the same throughout the
United States . . . .
Article III (excerpted)
Section 1. The Judicial Power of the United States,
shall be vested in one supreme Court, and in such
inferior courts as the Congress may from time to time
ordain and establish . . .
Section 2 The Judicial Power shall extend to all
Cases, in Law and Equity, arising under the Constitution, the Laws of the United States, and Treaties
made . . .
Amendment XII (1804)
The Electors shall meet in their respective states
and vote by ballot for President and Vice-President,
one of whom, at least, shall not be an inhabitant of
the same state with themselves; they shall name in
their ballots the person voted for as President, and in
distinct ballots the person voted for as Vice-President,

32a
and they shall make distinct lists of all persons voted
for as President, and of all persons voted for as VicePresident, and of the number of votes for each, which
lists they shall sign and certify, and transmit sealed to
the seat of the government of the United States,
directed to the President of the Senate; – The President
of the Senate shall, in the presence of the Senate and
House of Representatives, open all the certificates and
the votes shall then be counted; – The person having
the greatest Number of votes for President, shall be
the President, if such number be a majority of the
whole number of Electors appointed; and if no person
have such majority, then from the persons having the
highest numbers not exceeding three on the list of
those voted for as President, the House of Representatives shall choose immediately, by ballot, the President. But in choosing the President, the votes shall be
taken by states, the representation from each state
having one vote; a quorum for this purpose shall
consist of a member or members from two-thirds of the
states, and a majority of all the states shall be
necessary to a choice. And if the House of Representatives shall not choose a President whenever the right
of choice shall devolve upon them, before the fourth
day of March next following, then the Vice-President
shall act as President, as in the case of the death or
other constitutional disability of the President – The
person having the greatest number of votes as VicePresident, shall be the Vice-President, if such number
be a majority of the whole number of Electors
appointed, and if no person have a majority, then from
the two highest numbers on the list, the Senate shall
choose the Vice-President; a quorum for the purpose
shall consist of two-thirds of the whole number of
Senators, and a majority of the whole number shall be
necessary to a choice. But no person constitutionally

33a
ineligible to the office of President shall be eligible to
that of Vice-President of the United States.
Amendment XXIV, Section 1 (1964)
The rights of the citizens of the United States to vote
in any primary or other election for President or Vice
President, for electors for President or Vice President,
or for Senator or Representative in Congress, shall not
be denied or abridged by the United States or any
State by reason of failure to pay any poll tax or other
tax.
Amendment XXVI, Section 1 (1971)
The rights of the citizens of the United States, who
are eighteen years of age or older, to vote shall not be
denied or abridged by the United States or by any
State on account of age.

34a
STATUTORY PROVISIONS
3 U.S.C. § 15 (Counting electoral votes in
Congress) (with emphasis supplied)
Congress shall be in session on the sixth day of
January succeeding every meeting of the electors. The
Senate and House of Representatives shall meet in the
Hall of the House of Representatives at the hour of
1 o’clock in the afternoon on that day, and the
President of the Senate shall be their presiding
officer. Two tellers shall be previously appointed on
the part of the Senate and two on the part of the House
of Representatives, to whom shall be handed, as they
are opened by the President of the Senate, all the
certificates and papers purporting to be certificates of
the electoral votes, which certificates and papers shall
be opened, presented, and acted upon in the alphabetical order of the States, beginning with the letter A; and
said tellers, having then read the same in the presence
and hearing of the two Houses, shall make a list of the
votes as they shall appear from the said certificates;
and the votes having been ascertained and counted
according to the rules in this subchapter provided, the
result of the same shall be delivered to the President
of the Senate, who shall thereupon announce the
state of the vote, which announcement shall be
deemed a sufficient declaration of the persons,
if any, elected President and Vice President of
the United States, and, together with a list of the
votes, be entered on the Journals of the two Houses.
Upon such reading of any such certificate or paper, the
President of the Senate shall call for objections, if any.
Every objection shall be made in writing, and
shall state clearly and concisely, and without
argument, the ground thereof, and shall be
signed by at least one Senator and one Member

35a
of the House of Representatives before the same
shall be received. When all objections so made to any
vote or paper from a State shall have been received
and read, the Senate shall thereupon withdraw, and
such objections shall be submitted to the Senate
for its decision; and the Speaker of the House of
Representatives shall, in like manner, submit such
objections to the House of Representatives for its
decision; and no electoral vote or votes from any State
which shall have been regularly given by electors
whose appointment has been lawfully certified to
according to section 6 of this title from which but one
return has been received shall be rejected, but the two
Houses concurrently may reject the vote or votes when
they agree that such vote or votes have not been so
regularly given by electors whose appointment has
been so certified. If more than one return or paper
purporting to be a return from a State shall have been
received by the President of the Senate, those votes,
and those only, shall be counted which shall have been
regularly given by the electors who are shown by the
determination mentioned in section 5 of this title to
have been appointed, if the determination in said
section provided for shall have been made, or by such
successors or substitutes, in case of a vacancy in the
board of electors so ascertained, as have been
appointed to fill such vacancy in the mode provided by
the laws of the State; but in case there shall arise the
question which of two or more of such State authorities
determining what electors have been appointed, as
mentioned in section 5 of this title, is the lawful
tribunal of such State, the votes regularly given of
those electors, and those only, of such State shall be
counted whose title as electors the two Houses,
acting separately, shall concurrently decide is
supported by the decision of such State so

36a
authorized by its law; and in such case of more than
one return or paper purporting to be a return from a
State, if there shall have been no such determination
of the question in the State aforesaid, then those votes,
and those only, shall be counted which the two
Houses shall concurrently decide were cast by
lawful electors appointed in accordance with
the laws of the State, unless the two Houses,
acting separately, shall concurrently decide such
votes not to be the lawful votes of the legally
appointed electors of such State. But if the two
Houses shall disagree in respect of the counting of
such votes, then, and in that case, the votes of the
electors whose appointment shall have been certified
by the executive of the State, under the seal thereof,
shall be counted. When the two Houses have voted,
they shall immediately again meet, and the presiding officer shall then announce the decision of
the questions submitted. No votes or papers from
any other State shall be acted upon until the objections
previously made to the votes or papers from any State
shall have been finally disposed of.
* * *
3 U.S.C. § 20: “The only evidence of a refusal to accept,
or of a resignation of the office of President or Vice
President, shall be an instrument in writing, declaring
the same, and subscribed by the person refusing to
accept or resigning, as the case may be, and delivered
into the office of the Secretary of State.”
* * *
28 U.S.C. § 1651(a): “The Supreme Court and all
courts established by Act of Congress may issue all
writs necessary or appropriate in aid of their respective jurisdiction and agreeable to the usages and
principles of law.”

37a
* * *
28 U.S.C. § 1291: “The courts of appeals . . . shall have
jurisdiction of appeals from all final decisions of the
district courts of the United States, . . . except where a
direct review may be had in the Supreme Court.”
* * *
28 U.S.C. § 2201(a): “In a case of actual controversy
within its jurisdiction, . . . any court of the United
States, upon the filing of an appropriate pleading, may
declare the rights and other legal relations of any
interested party seeking such declaration, whether or
not further relief is or could be sought. Any such
declaration shall have the force and effect of a final
judgment or decree and shall be reviewable as such.”
* * *
FRCP 60(a): “The court may correct a clerical mistake
or a mistake arising from omission whenever one is
found in a judgment, order, or other part of the record.
The court may do so on motion or on its own, with or
without notice . . .”
* * *
FRCP 60(b): “On motion and just terms, the court
may relieve a party or its legal representative from a
final judgment, order, proceeding for the following
reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(4) the judgment is void; or
(6) any other reason that justifies relief.
* * *

38a
Rule 201(b)(2) of Federal Rules of Evidence: “The
court may judicially notice a fact that is not subject to
reasonable dispute because it . . . can be accurately and
readily determined from sources whose accuracy cannot
reasonably be questioned.”
* * *

39a
PUBLISHED ARTICLES
NEW YORK TIMES ARTICLE:
It is Over: Democrats’ Efforts
to Deny Trump Presidency Fail*
(January 6, 2017)
By Matt Flegenheimer
Congress Certifies the Electoral College Vote
On Friday, Donald J. Trump’s victory in the 2016
election was certified during a joint session of
Congress.
WASHINGTON—One by one, the Democratic lawmakers stepped to the microphone on Friday, holding
on to their letters and an impossible dream: denying
the presidency to Donald J. Trump, two weeks before
his inauguration.
And one by one, Vice President Joseph R. Biden
Jr.—presiding over a joint session of Congress to
validate the Electoral College results in Mr. Trump’s
victory—turned back their challenges with a stoic
message, pounding his gavel without hesitation.
“It is over,” Mr. Biden said at one point, as
Republicans rose to their feet to cheer.
After weeks of fitful grumblings about the long-shot
maneuvers that might obstruct Mr. Trump’s path to
the White House, the proceedings on Friday appeared
to close the book.
Lawmakers are permitted to make objections to
both individual and state tallies, but they must be
submitted in writing and signed by at least one
member of both the House and the Senate. No senator
chose to join the cause of the half-dozen or so House
Democrats who raised complaints.

40a
The result was a parade of clipped protests from
House members, drowned out quickly by the questioning of the vice president, who also serves as the
president of the Senate.
The members spoke of voter suppression, of Russian
interference and of the bracing fear consuming many
Americans.
“Mr. President, I object because people are horrified,”
began Representative Barbara Lee of California.
Repeatedly, Mr. Biden asked if anyone could
produce an objection that was joined by a senator.
“In that case,” he said, to Republican applause, when
no one could, “the objection cannot be entertained.”
As the exercise neared its end, Representative
Maxine Waters, Democrat of California, stepped
forward. “I do not wish to debate,” she said. “I wish to
ask: Is there one United States senator who will join
me?”
Mr. Biden reached for his gavel.
For Republicans, the state-by-state recap supplied a
heartening reminder of November’s great surprises:
victories for Mr. Trump in Florida, Michigan,
Pennsylvania and Wisconsin.
When the results in Colorado, a rare swing state
victory for Hillary Clinton, were read aloud, a faint
voice could be heard from the Democratic side: “Yea,
Colorado.”
But as Mr. Biden read the final numbers—including
a single vote from an elector in Washington State for
Faith Spotted Eagle, a Native American tribal leader
who has led opposition to the Keystone XL pipeline—

41a
more conspicuous demonstrations against Mr. Trump
erupted among visitors to the gallery.
“I rise to defend our democracy. We reject this electoral vote,” one woman shouted as she was escorted out.
“I rise to defend free and fair elections,” a man cried
a moment later. “Donald Trump as commander in
chief is a threat to American democracy.”
A spokeswoman for the United States Capitol Police
said two men and one woman had been arrested.

42a
TIME ARTICLE:
Hillary Clinton Leads by 2.8 Million
in Final Popular Vote Count
(December 20, 2016)
By Sarah Begley

© Mark Wilson—Getty Images Former US Secretary
of State, Hillary Clinton is applauded before speaking
at a portrait unveiling ceremony for outgoing Senate
Minority Leader Harry Reid (D-NV), on Capitol Hill
December 8, 2016 in Washington ...
In the final count, Hillary Clinton’s lead in the
popular vote of the 2016 presidential election was
nearly three million votes.
According to the independent, non-partisan Cook
Political Report, Clinton’s final tally came in at
65,844,610, compared to Donald Trump’s 62,979,636,
with a difference of 2,864,974. The total number of
votes for other candidates was 7,804,213.

43a
Although Clinton captured nearly as many votes as
Barack Obama did to win in 2012 (65,915,795), she
lost the electoral college by a wide margin, clocking in
at only 227 votes compared to Trump’s 304. Seven
electors who were pledged to vote for either Clinton or
Trump defected to other options, like Colin Powell,
Bernie Sanders and “Faith Spotted Eagle.”
[Cook Political Report] (excerpts below)
2016 National Popular Vote Tracker
Clinton (D)
65,844,954
Trump (R)
62,979,879
Others
7,804,213
Clinton %

48.20%

Trump %
Others %

46.10%
5.70%

Dem ’12 Margin

3.90%

Dem ’16 Margin
Margin Shift

2.10%
-1.80%

Total ’12 Votes

129,075,630

Total ’16 Votes
Raw Votes vs. ’12

136,629,046
5.90%

Compiled from official sources by: David Wasserman
@Redistrict, Cook Political Report @CookPolitical
*Denotes Official/Certified Results; “Swing State”
defined as state that flipped from ’12 or was decided
by less than 5%.

44a
NEW YORK TIMES ARTICLE:
Why Trump Had an Edge in the Electoral College
(December 19, 2016)
Nate Cohn @NateCohn
With an expected win in the Electoral College today,
Donald J. Trump will seal his presidential victory—
despite losing the national popular vote by a significant margin.
His Electoral College lead should be substantial,
since he won states worth 306 electoral votes to 232
from states won by Hillary Clinton. Yet the nearly final
popular vote count has him trailing by nearly three
million votes, or 2.1 percentage points, the largest deficit
for a winning candidate since 1876’s notorious election.
How exactly did we end up with such divergent
results?
Liberals say Mr. Trump’s victory is proof that the
Electoral College is biased against big states and
undemocratically marginalizes urban and nonwhite
voters. Conservatives say the Electoral College serves
as a necessary bulwark against big states, preventing
California in particular from imposing “something
like colonial rule over the rest of the nation,” as the
conservative analyst Michael Barone put it. California
sided with Mrs. Clinton by a vote margin of four
million, or 30 percentage points.
Both sides have a point. But in the end, Mr. Trump
won for a simple reason: The Electoral College’s (largely)
winner-take-all design gives a lot of weight to battleground states. Mr. Trump had an advantage in the
traditional battlegrounds because most are whiter and
less educated than the country as a whole.

45a
But Mr. Trump’s success in those states isn’t just
about demographics. It’s about quirks of history, like
the outcome of a battle over Toledo, Ohio. It’s about
gains by Mrs. Clinton that went unrewarded. It’s also
about plain luck.
No, not regionalism
One argument in favor of the Electoral College is
that it doesn’t reward regionalism: a candidate who
wins with huge margins in one part of the country.
That’s because a winner-take-all system doesn’t reward
any additional votes beyond what’s necessary to win a
state or a region. You get all of Florida’s electoral
votes, whether you win it by 537 or 537,000 votes.
A good example of how regionalism can drive a
popular-electoral vote split is the 1888 election. The
Democrat, Grover Cleveland, won the popular vote by
nearly a point, but he lost the Electoral College by a
margin similar to Mrs. Clinton’s.
Why? He won the popular vote by dominating the
Deep South, where white supremacist Democrats had
succeeded in disenfranchising Republican black voters
since the end of Reconstruction. Even progressives would
consider this a moral victory for the Electoral College.
Regionalism Drove Electoral Split in 1888
In 1888, Democrats won the popular vote but lost
the Electoral College.
But Democrats won the popular vote by running up
huge margins in the Deep South. The Republicans
didn’t do nearly as well in their best states.
That drove the popular vote-electoral vote split:
Democrats lost the popular vote and the electoral vote
in the rest of the country.

46a
{Charts Omitted}
Mrs. Clinton’s big win in California was, on paper,
potentially enough to be “responsible” for the electoralpopular vote split in the same way that the Deep South
drove Mr. Cleveland’s popular vote win in 1888.
But unlike the situation in 1888, Mrs. Clinton’s
huge victory in California (along with the District of
Columbia and Hawaii, where Mrs. Clinton won by a
higher percentage than she did in California) was almost
entirely canceled out by Mr. Trump’s dominance of his
base states—which we’ll call Appalachafornia—from
West Virginia to Wyoming. (“Appalachafornia” consists of West Virginia, Kentucky, Tennessee, Arkansas, Alabama, Oklahoma, Kansas, Nebraska, Wyoming, Montana, Idaho, North Dakota and South
Dakota.)
It Wasn’t Regionalism in 2016
As in 1888, Democrats won the popular vote while
losing the Electoral College.
But it wasn’t because Democrats did far better
in their base than the Republicans, who won
Appalachafornia by just as much as Democrats won
California.
Democrats still won the popular vote and lost the
Electoral College in the rest of the country, excluding
Appalachafornia and California.
{Charts omitted}
Mrs. Clinton led in the rest of the country by the
same two-point margin after excluding Appalachafornia
and California—and yet she still loses the Electoral
College vote by about the same margin.

47a
That’s not how it went in 1888: The Republicans
didn’t waste nearly as many votes in their best states,
so they actually led in the vote in the rest of the
country. They won the Electoral College as well.
Whatever danger conservatives face from “imperial”
California in a popular vote is matched by the
threat Democrats would face from an “imperial”
Appalachafornia. Regionalism alone is not why Mr.
Trump won without the popular vote.
No, not small-state bias
The Electoral College isn’t just a check against regionalism. It also reflects our federal system by awarding
an electoral vote for every senator and representative.
The result is that small states get more sway, since
senators aren’t awarded by population.
Wyoming, the least populous state, has one-sixtysixth of California’s population. Yet it has one-eighteenth
of California’s electoral votes.
In general, the Electoral College’s small-state bias
does hurt the Democrats. In fact, the small-state bias
tipped the 2000 election. Al Gore would have won the
presidency, 225 to 211, if electors were just awarded
by representative, not by senators and representatives.
But the small-state bias was almost entirely irrelevant to Mr. Trump’s advantage. Mrs. Clinton won
plenty of small states—she won seven of the 12
smallest. Mr. Trump, meanwhile, won plenty of big
states—in fact, he won seven of the 10 largest.
Defeat Even Without Small-State Bias
Mrs. Clinton would have fared just as badly in the
Electoral College even if states were worth exactly
their share of the population.

48a
Hillary Clinton’s share of Electoral College votes,
under different apportionment of electors
{charts omitted}
As a consequence, the result would have been
virtually identical if states had not received electoral
votes for their senators. It would have even been the
same if the electors had been apportioned exactly by a
state’s population.
Battleground Bias
O.K., so it’s not California and it’s not small-state
bias. What is it?
It’s the Electoral College’s most straightforward
bias: The battleground states count the most.
Mrs. Clinton did well in noncompetitive states and
“wasted” popular votes that didn’t earn her any more
electoral votes, while Mr. Trump did just well enough
in competitive states to pick up their electoral votes.
There are, of course, two halves to this effect:
 Mrs. Clinton fared better in the remaining blue
states, outside of California and Hawaii, than Mr.
Trump did in the remaining red states, outside of
“Appalachafornia.”
Mrs. Clinton won states like Illinois and New York
by a much larger margin than Mr. Trump won
similarly sized red states like Georgia and Texas.
Compared with President Obama in 2012, Mrs.
Clinton made sizable gains in many of the red states
outside of Appalachafornia, including a big sevenpoint improvement in Texas—yet won no electoral
votes from them.

49a
 Mr. Trump did very well in the battleground
states. Depending on how the battlegrounds are
defined, the vote there either broke for Mr. Trump or
was virtually tied—a huge improvement over Mitt
Romney’s showing in 2012.
Mr. Trump won a lopsided electoral vote tally from
those states by narrowly winning four of the five states
decided by around one point or less: Florida, Wisconsin,
Michigan and Pennsylvania (Mrs. Clinton edged him
out in New Hampshire). Outside of those five states,
the electoral vote was basically tied, with Mr. Trump
edging out Mrs. Clinton, 231 to 228 (and leading by the
margin of small-state bias).
The imbalance between competitive and battleground states is somewhat similar to a regionalism
issue, at least in a mathematical sense: Mrs. Clinton
won the “blue states” by a wider margin than Mr.
Trump won the “red states.” The rest of the country—
the battlegrounds—voted Republican, and so did the
Electoral College.
But this isn’t a regionalism issue. The “solid red”
and “solid blue” states where Mr. Trump failed to
make gains include a clear majority of the country’s
Electoral College votes, population and actual votes.
The regional anomaly was the Midwest, and it just so
happens that in a winner-take-all system Mr. Trump’s
strength in the Midwestern battleground states yielded
a lot of Electoral College votes.
There’s a real demographic reason for it: Most of the
traditional battleground states are much whiter, less
educated and particularly less Hispanic than the rest
of the country.
But the demographics alone don’t quite do justice to
Mr. Trump’s victory in the Electoral College. In the

50a
end, he won the battleground states by just a one-point
margin—but claimed three-fourths of their Electoral
College votes.
He won four of the five closest states, winning 75 of
79 votes at stake.
There has never been a close election in the United
States in which one candidate has claimed such a
resounding electoral vote margin out of the closest
states.
Trump Narrowly Wins Big, Close States
Mr. Trump won the closest states by an electoral
vote margin of 71—the largest in competitive American
elections.*
Electoral vote margin in states decided by 1.5 points
or less. {charts omitted}
*Popular vote margin less than 5 percentage points.
For lack of a better word: Mr. Trump had some very
good luck.
There’s nothing about the distribution of Mrs. Clinton’s
votes in the battlegrounds or nationally that meant
she was destined to get as few electoral votes as she did.
Just take Minnesota, Wisconsin and Michigan—three
contiguous states spanning the Upper Great Lakes.
Mrs. Clinton actually won the region by a narrow
margin, but she won just 10 of the 36 votes at stake.
Accidents of History
Ultimately, state lines are pretty arbitrary. Yes,
when those lines were determined, there were reasoned
considerations like population and access to rivers and
resources. But statehood and state lines, often poorly
surveyed in the first place, were hotly disputed in the

51a
19th century. Many states were created in response to
political considerations, especially the balance between
free and slave states. In other times, it could have gone
very differently.
Consider two of the bigger nonpolitical state boundary questions of the 19th century: the fate of the
Florida Panhandle and the “Toledo War.”
The Toledo War was a long dispute between Michigan
and Ohio over a tiny strip of land along their border,
which happens to include the city of Toledo. Ohio had
the upper hand for one reason: It earned its statehood
first, and therefore blocked Michigan’s petition—which
included the strip. In the end, Congress proposed a
deal: Michigan would relinquish its claim on the Toledo
strip and, in exchange, would get the Upper Peninsula.
The Florida Panhandle and the Florida Peninsula
were governed as separate regions—West and East
Florida—under Spanish and British rule. They were
effectively separated by hundreds of miles of treacherous swamp and forest.
Ultimately, West and East Florida were combined
into one state. This was mainly coincidental: Alabama
earned statehood before the Florida territory was
annexed. West Florida repeatedly tried to join Alabama,
starting as soon as the state was annexed and lasting
all the way past the Civil War. Many of these efforts—
which included referendums, congressional petitions
and direct negotiations between Florida and Alabama—
nearly succeeded. But they ultimately did not.
If these minor border issues had gone differently,
Mrs. Clinton would probably be president. The Florida
Panhandle is heavily Republican: Without it, the rest
of Florida votes Democratic. Both halves of the Toledo
War worked out poorly for Mrs. Clinton. Not only

52a
would she have won Michigan with Toledo, but she
would have also won Michigan without the Upper
Peninsula: Only the full trade gives Mr. Trump a
narrow win.
Interestingly, the same changes would have flipped
the 2000 election, and perhaps the 1876 election, to the
same result as the national popular vote (though I
don’t have county-level results for Florida in that
election). The pronounced regionalism at play in 1888
would have made it harder to change the outcome by
tweaking state lines.
To be clear, you can also make plenty of changes
that would benefit Republicans. You could reunify
West Virginia and Virginia, to take an easy one.
The point is that the main bias of the Electoral
College isn’t against big states or regionalism; it’s just
toward the big battleground states. If they break
overwhelmingly one way, that’s who wins. This is not
exactly a high-minded Hamiltonian argument. There
aren’t many justifications for letting a few close states
decide a close national election. But that’s basically
what the system does, and there’s nothing about those
states that ensures they provide a representative
outcome.
Correction: December 19, 2016
An earlier version of this article misstated a part of
Florida that is heavily Republican. It is the Florida
Panhandle, not the Florida peninsula.

53a
NEW YORK TIMES ARTICLE:
As American as Apple Pie?
The Rural Vote’s Disproportionate Slice of Power
(November 20, 2016)
Emily Badger @emilymbadger

Census taking in the Dakotas sometime in the 1880s.
The Dakota Territory was divided into two states,
worth twice the political power. Credit David Francis
Barry, via Library of Congress
In 1920, for the first time, the Census Bureau counted
more people living in urbanized America than in the
countryside. This hasn’t been a rural nation ever since.
Yet the idea of Thomas Jefferson’s agrarian America
has receded slowly despite demographic change. We
still romanticize the family farm, though relatively
few of them exist anymore. We view even suburbia

54a
in pastoral terms—the “crabgrass frontier,” as the
historian Kenneth T. Jackson put it. And, as the recent
Electoral College results make clear, we still live with
political institutions that have baked in a distinctly
pro-rural bias, by design.
The Democratic candidate for president has now
won the popular vote in six of the last seven elections.
But in part because the system empowers rural states,
for the second time in that span, the candidate who
garnered the most votes will not be president.
Rural America, even as it laments its economic
weakness, retains vastly disproportionate electoral
strength. Rural voters were able to nudge Donald J.
Trump to power despite Hillary Clinton’s large margins
in cities like New York. In a House of Representatives
that structurally disadvantages Democrats because of
their tight urban clustering, rural voters helped Republicans hold their cushion. In the Senate, the least
populous states are now more overrepresented than
ever before. And the growing unity of rural Americans
as a voting bloc has converted the rural bias in
national politics into a potent Republican advantage.
“If you’re talking about a political system that skews
rural, that’s not as important if there isn’t a major
cleavage between rural and urban voting behavior,”
said Frances Lee, a professor of government and politics at the University of Maryland. “But urban and
rural voting behavior is so starkly different now so
that this has major political consequences for who has
power.”

The U.S. Senate
Representative

55a
Has Become

Even

Less

The minimum share of the U.S. population able to
elect a Senate majority.
The Electoral College is just one example of how an
increasingly urban country has inherited the political
structures of a rural past. Today, states containing
just 17 percent of the American population, a historic
low, can theoretically elect a Senate majority, Dr. Lee
said. The bias also shapes the House of Representatives.
It exists, as a result, in the formulas that determine
where highway funds are spent or who gets Homeland
Security dollars. It exists in state capitols, where bills
preferred by urban delegations have been much more
likely to be rejected.
Today, the influence of rural voters also evokes
deeply rooted ideals about who should have power in
America. Jefferson and James Madison argued that
the strength of the nation would always derive from
its agrarian soil.
“They had this vision of what they called the ‘yeoman
farmer’: this independent, free-standing person who
owed nothing to anybody, who didn’t receive any
payments from the government, who didn’t live by a
wage, but who could support himself and his family on
a farm growing everything they needed—and that
these were the people who were going to be the backbone of democracy,” said Gerald Gamm, a political
scientist at the University of Rochester, describing
what could be the forefathers of the rural voters who
tilted this year’s election.

56a
One in Five People Live in Rural America Today
{Charts excerpted}
When the framers of the Constitution were still
debating the shape of institutions we have today, 95
percent of America was rural, as the 1790 census classified the population. The Connecticut Compromise at
the time created the Senate: one chamber granting
equal voice to every state to counterbalance the House,
where more populous states spoke louder.
And they made sure the compromise stuck. Today,
equal state representation in the Senate is the only
provision in the Constitution that remains singled out
for protection from the amendment process; no state
can lose its full complement of senators without its
permission.
But even as a deliberately undemocratic body, the
Senate has slipped further out of alignment with the
American population over time.
The Senate hasn’t simply favored sparsely populated
states; politicians in Washington created sparsely populated states to leverage the Senate’s skewed power.
“When we talk about small-state bias, all of that
was an intentional policy choice,” said Jowei Chen,
a political scientist at the University of Michigan.
Republicans in Congress passed the 1862 Homestead
Act, offering free land to settlers who would move to
territories that would eventually become states—
creating more Senate seats and Electoral College votes
for a Republican Party eager to keep government
control away from Southern Democrats. They even
managed to divide the Dakota Territory into two
states, worth twice the political power.

57a
As the Plains later depopulated and American cities,
then suburbs, swelled, the Senate became even more
unrepresentative.
Jeffersonian suspicion of big cities also appears in
the sites of state capitals: Albany and not New York;
Jefferson City and not St. Louis; Springfield and
not Chicago. Political scientists at the University of
California, Davis, have found that most state capitals
were located near what was then the population centroid
of each state—typically closer to the geographical
center of the state, and not the place where the most
people already lived, breaking with how much of the
world sited its capitals.
The state legislatures there also grew significantly
less representative as America urbanized. In 1961,
when lawyers in Tennessee brought what would be a
seminal case before the Supreme Court challenging
the practice, the state legislature had not reapportioned its districts to reflect population change in 60
years. Maryland was still using districts drawn in
1867.
Even states that had constitutions requiring equal
population districts were ignoring them. Florida,
Georgia and New Mexico gave small counties 100
times the voting power of the most populous ones.
Decades ago in California, Amador County (population
14,294) had the same representation in the state’s
Senate as Los Angeles County (with a population over
six million).
“They justified it because that was a cultural norm;
it was just the way things were,” said Stephen
Ansolabehere, a Harvard professor of government.
Rural legislators had no incentive to change a system

58a
that favored them. “They just let it keep getting worse.
You’re in power. Why change?”

A crowded Coney Island beach in Brooklyn in 1923.
Credit Robert Sennecke/Ullstein Bild, via Getty
Images.
By the mid-20th century, no state approximated
majority rule. America at the time, Dr. Ansolabehere
and James M. Snyder Jr. wrote in their book “The End
of Inequality,” had some of the most unequal representation in the world. A series of Supreme Court cases
beginning with that Tennessee complaint upended
this system and established the standard that equal
representation means “one person, one vote.” Not one
town, one vote. Or one county, one senator. Only the
United States Senate, protected by the Constitution,
remained unchanged.
Still, the House retains a rural bias. Republican voters
are more efficiently distributed across the country
than Democrats, who are concentrated in cities. That
means that even when Democrats win 50 percent of

59a
voters nationwide, they invariably hold fewer than
50 percent of House seats, regardless of partisan
gerrymandering.
The Electoral College then allocates votes according
to a state’s congressional delegation: Wyoming (with
one House representative and two senators) gets three
votes; California (53 representatives and two senators)
gets 55. Those two senators effectively give Wyoming
three times more power in the Electoral College than
its population would suggest. Apply the same math to
California and it would have 159 Electoral College
votes. And the entire state of Wyoming already has
fewer residents than the average California congressional district.
In Washington, these imbalances directly influence
who gets what, through small-state minimums (no
state can receive below a certain share of education
funding) and through formulas that privilege rural
states (early road spending was doled out in part by
land area and not road use).
There are policy reasons that the country might
want to disproportionately spend resources on places
with few people. Repairing an interstate highway in
rural Oklahoma keeps national commerce flowing.
And when the private market won’t build essential
infrastructure, public investments like the New Deal’s
rural electrification help fight poverty.
But even when you control for policy need, Dr. Lee’s
research has found that a significant rural bias in
resources persists. You can see it in Homeland Security
funding that gave Wyoming, for example, seven times
as much money per capita as New York after the
Sept. 11 terrorist attacks. You can see it in Alaska’s
proposed “bridge to nowhere.”

60a
“In that case,” Dr. Ansolabehere said, “Alaska has
so much disproportionate power in the negotiation
over funds that in order for California to get some,
Alaska gets a lot—to the point of not knowing what to
spend the money on.”
These calculations also mean that populous states subsidize less populous ones, which receive more resources
than the tax dollars they send to Washington.
The challenge for rural voters now is that their
electoral strength, and even these funding formulas,
have not translated into policies that have fixed the
deep economic problems they face, from high unemployment to declining wages. And it’s unclear how Mr.
Trump will do that for them, either—even if his major
infrastructure proposal comes to pass and helps rebuild
their roads.
If he can’t, rural voters may stray from his party
again. In that future, the rural bias in American politics
would persist. But Democrats might yet have a chance
to blunt its effects.

61a
NEW YORK TIMES EDITORIAL BOARD:
Time to End the Electoral College
(December 19, 2016)
By the New York Times Editorial Board,
Credit Tyler Comrie

By overwhelming majorities, Americans would prefer
to elect the president by direct popular vote, not
filtered through the antiquated mechanism of the
Electoral College. They understand, on a gut level, the
basic fairness of awarding the nation’s highest office
on the same basis as every other elected office—to the
person who gets the most votes.
But for now, the presidency is still decided by 538
electors. And on Monday, despite much talk in recent

62a
weeks about urging those electors to block Donald
Trump from the White House, a majority did as
expected and cast their ballots for him—a result
Congress will ratify next month.
And so for the second time in 16 years, the candidate
who lost the popular vote has won the presidency.
Unlike 2000, it wasn’t even close. Hillary Clinton beat
Mr. Trump by more than 2.8 million votes, or 2.1
percent of the electorate. That’s a wider margin than
10 winning candidates enjoyed and the biggest deficit
for an incoming president since the 19th century.
Yes, Mr. Trump won under the rules, but the rules
should change so that a presidential election reflects
the will of Americans and promotes a more participatory democracy.
Every weekday, get thought-provoking commentary
from Op-Ed columnists, the Times editorial board and
contributing writers from around the world.
The Electoral College, which is written into the
Constitution, is more than just a vestige of the founding era; it is a living symbol of America’s original sin.
When slavery was the law of the land, a direct popular
vote would have disadvantaged the Southern states,
with their large disenfranchised populations. Counting
those men and women as three-fifths of a white person, as the Constitution originally did, gave the slave
states more electoral votes.
Today the college, which allocates electors based on
each state’s representation in Congress, tips the scales
in favor of smaller states; a Wyoming resident’s vote
counts 3.6 times as much as a Californian’s. And because
almost all states use a winner-take-all system, the
election ends up being fought in just a dozen or so

63a
“battleground” states, leaving tens of millions of
Americans on the sidelines.
There is an elegant solution: The Constitution
establishes the existence of electors, but leaves it up to
states to tell them how to vote. Eleven states and the
District of Columbia, representing 165 electoral votes,
have already passed legislation to have their electors
vote for the winner of the national popular vote. The
agreement, known as the National Popular Vote interstate compact, would take effect once states representing
a majority of electoral votes, currently 270, signed on.
This would ensure that the national popular-vote
winner would become president.
Conservative opponents of a direct vote say it would
give an unfair edge to large, heavily Democratic cities
and states. But why should the votes of Americans in
California or New York count for less than those in
Idaho or Texas? A direct popular vote would treat all
Americans equally, no matter where they live—
including, by the way, Republicans in San Francisco
and Democrats in Corpus Christi, whose votes are
currently worthless. The system as it now operates
does a terrible job of representing the nation’s demographic and geographic diversity. Almost 138 million
Americans went to the polls this year, but Mr. Trump
secured his Electoral College victory thanks to fewer
than 80,000 votes across three states: Michigan,
Pennsylvania and Wisconsin.
This page opposed the Electoral College in 1936, and
in more recent years as well. In 2004, President George
W. Bush won the popular vote by more than three
million, but he could have lost the Electoral College
with a switch of fewer than 60,000 votes in Ohio.

64a
Many Republicans have endorsed doing away with
the Electoral College, including Mr. Trump himself, in
2012. Maybe that's why he keeps claiming falsely that
he won the popular vote, or why more than half of
Republicans now seem to believe he did. For most
reasonable people, it's hard to understand why the
loser of the popular vote should wind up running the
country.

65a
SCIENTIFIC AMERICAN
Guest Blog
The Funky Math of the Electoral College
Everyone knows it’s a weird way to elect presidents—
but it’s even crazier than you think
August 24, 2016
By Randyn Charles Bartholomew

Credit: DSW4 Wikimedia
You might already know we have a pretty weird
system for electing presidents. Candidates can win
with fewer votes, some states matter more than others,
some votes matter more than others, and all due to an
ad hoc political compromise between 18th century
wigged gentlemen. Per their decision, we don’t vote for
our leaders directly, but instead choose intermediaries, known as electors, who then (usually) vote for who
we tell them to. Since each state is given two free
electors regardless of how few people live there, voters
from sparsely populated states like Wyoming are able
to pack over three times the electoral punch than in
large states like California.

66a
So it’s been for the past 57 presidential elections,
and so it shall be this November when we decide
whether Hillary Clinton or Donald Trump should be
our next Commander in Chief.
But the situation is even weirder than you think.
According to Professor Steven Brams, a political
scientist and game theorist at NYU who has been working on electoral decision problems since the 1970s,
there is a non-obvious effect that gives more power to
the large states than their large populations would
suggest. His research indicates that campaign resources
should be allocated to states according to their electoral votes to the three-halves power. Why this is so
involves advanced combinatorial math, for the initiated only, but the outcome is that if one state has four
times the electoral votes of another state, rather than
give it quadruple the attention and ads, it’s in a campaign’s interest to give it eight times as much, all else
being equal. (It may be a dubious proposition that this
is in any way advantageous to the citizens of these
large states, as they get bombarded with mailers and
30-second TV ads, but it is a reflection of how valuable
their votes are to the campaigns competing for them.)
This isn’t just an academic result, Brams told me.
Studies show campaigns actually do allocate their
resources this way. If anything, they over-invest in the
large states. As 1964’s Republican nominee Barry
Goldwater put it, you have to “go shooting where the
ducks are.” Because most states’ electoral votes are
bundled into winner-take-all blocs, a large state like
Ohio with its 18 electors can easily become must-win
for either side.
One way to understand this phenomenon is to imagine
an extreme case in which a number of large states

67a
merge into an even larger one. Let’s call it New
Texaflohioginia. Let’s further envision that New
Texaflohioginia is worth a total of 270 electoral votes,
and that all the remaining states are worth a total of
268. In this thought experiment, a candidate could
safely ignore anyone living in those smaller states
since whoever manages to win New Texaflohioginia
will get all 270 of its votes, enough to outweigh all the
other states combined, and therefore enough to win
the presidency.
So which states have more influence per voter then,
the big states or the smaller ones? It’s not an easy
question to answer since there are factors pushing in
opposite directions, and they interact in ways which
are asymmetrical and complex. Small states get more
electors per voter, while the big states form larger
blocs which cluster their influence into unignorable
masses. According to Brams, “you might think the
small states would have an advantage because of the
plus two votes they get, but the winner-take-all aspect
swamps the small state effect.”
But not everyone agrees with this analysis. Professor
Andrew Gelman, a statistician and political scientist
at Columbia University, points to a study of his which
he says shows the real-life distribution of votes following a different pattern from the one predicted by
Brams et al. In his view, the theory of a large state
bias lacks empirical backing and thus the “small states
are slightly overrepresented because of how they all
get three electoral votes.”
Even if academics aren’t in agreement on the knotty
ways in which the votes of small and large states
interact, there is one distinction that is widely agreed
on: the one between swing states and non-swing states.
The system “is motivating candidates to campaign in

68a
swing states, so a few states become very important
and nobody else matters,” Gelman said. In a state like
New York, for instance, democrats have won by an
average of 26 percent in the last five presidential elections, and always by at least 20%. Since the outcome
is generally not in question, an individual vote, or even
a few thousand votes, cannot alter the result. What’s
more, if a solidly blue state like New York does happen
to be close in a particular election, that would almost
certainly indicate a national landslide in favor of
Republicans, as in 1984, when Ronald Reagan won
New York—and every other state, excepting only
Minnesota and the District of Columbia.
Most states are lopsidedly red or blue in this way.
Only a very few are competitive, and candidates limit
their charm offensives to these few battleground states.
“In most states your vote doesn’t count. You may as
well not have voted at all,” Brams said.
So which states do matter? For starters, Pennsylvania.
Trump recently claimed that if he doesn’t win in that
state, it will be because Clinton cheated. Given the
current polls, that is highly dubious, but for a while
its rust belt voters seemed receptive enough to the
Republican nominee’s populist message. Florida too
will certainly be at the top of both candidates’ wishlists. Its importance was amply demonstrated in 2000
when a mere few hundred votes were the difference in
Florida’s electoral delegation swinging to George W.
Bush instead of Al Gore, thereby winning him the
presidency. Trump may now be regretting the way he
insulted Florida’s popular Senator “little Marco” Rubio
and ex-Governor Jeb “low energy” Bush.
Then there’s Ohio. No Republican has ever won the
presidency without winning Ohio, and Democrats
have managed to overturn the will of Ohioans just

69a
once. According to the nonprofit organization FairVote,
in 2012 Mitt Romney held more campaign events in
Ohio than in all 30 of the smallest states combined.
(Ohio still opted for Barack Obama.) The New York
Times reports that Ohio Governor John Kaisich was
offered—and turned down—the Republican VP slot.
Hillary Clinton had more luck, luring the ex-governor
of Virginia, another swing state, onto her ticket. Other
swing states include Iowa, Nevada, Colorado, New
Hampshire, North Carolina, and possibly Wisconsin
and Michigan.
If one purpose of our grueling year-long presidential
campaigns is to create a national conversation about
the major issues facing the country, then most Americans
are not being invited into that discussion. The current
system creates the incentive for candidates to moneyball
the electoral college in all its kludgy non-egalitarian
intricacies. These Byzantine strategeries are both opportunity and necessity for modern campaigns.
As we gear up for an election so operatic and wacky
it makes House of Cards look prosaic by comparison,
it’s natural that the more urgent question of Clinton
versus Trump remains at the forefront of our minds.
But hovering above all the targeted ad dollars and
campaign stops in the same old states, we might also
pause to wonder: does democracy really need to be
more complicated than “most votes wins”? However,
the electoral college is written into the constitution
and is not likely to be amended anytime soon. Let’s
hope Pennsylvania, Ohio and Florida pick us a good
president.
The views expressed are those of the author(s) and are
not necessarily those of Scientific American.
https://blogs.scientificamerican.com/guest-blog/
the-funky-math-of-the-electoral-college/

70a
POLITICO
Trump pushes to swap
Electoral College for popular vote
April 26, 2018 10:47 a.m. EDT
By Louis Nelson
President Donald Trump on Thursday voiced support
for doing away with the Electoral College for presidential elections in favor of a popular vote because the
latter would be “much easier to win.”
The president’s support for a popular-vote presidential election came as an aside during a freewheeling
Thursday morning interview with “Fox & Friends,”
the Fox News morning show he is known to watch and
from which he receives almost unflinchingly positive
coverage. Trump made the remark amid a larger point
about public figures who publicly support him in turn
benefiting from a boost of popularity from Trump
supporters.
“Remember, we won the election. And we won it
easily. You know, a lot of people say ‘Oh, it was close.’
And by the way, they also like to always talk about
Electoral College. Well, it’s an election based on the
Electoral College. I would rather have a popular election, but it’s a totally different campaign,” Trump said.
“It’s as though you're running – if you're a runner,
you're practicing for the 100-yard dash as opposed to
the 1-mile.”
“The Electoral College is different. I would rather
have the popular vote because it's, to me, it's much
easier to win the popular vote,” he continued.
Despite projections ahead of Election Day that the
Electoral College map did not offer him a clear path to
victory, Trump cruised past the 270-electoral-vote

71a
threshold, ultimately earning 306. (Trump officially
earned 304 votes, thanks to two electors who voted
against the president even though he won their state.)
But despite Trump’s claims that his election was a
landslide victory, he has at times been haunted by the
fact that Democrat Hillary Clinton beat him in the
popular vote by almost 3 million votes, a result Trump
has chalked up to a strategic decision by his 2016 team
not to campaign in blue states. Only one Republican,
George W. Bush in 2004, has won the nationwide
popular vote in presidential elections dating back to
1992.
https://www.politico.com/story/2018/04/26/
trump-electoral-college-popular-vote-555148

72a
INTELLIGENCER
A New 2016 Election Voting Map
Promotes . . . Subtlety
March 9, 2018
By Eliza McCarthy

Photo: Courtesy of Kenneth Field and Esri.com
Along with the New York Times’ needle of death,
perhaps no infographics are as associated with the
2016 election as voting maps.
You know the ones: A Democrat would post an
almost psychedelically stretched-out cartogram of the
continental U.S. shaped by vote population distribution, because, as you recall, Hillary Clinton got 3
million more votes.
A Republican would then put up a very different
map showing all the counties that voted for Trump
and making the U.S. look like a sea of red – never mind

73a
that a lot of those rural counties have fewer inhabitants than a single block in Manhattan. (Donald Trump
put a version of this map on a wall in the White
House.)
Now, some 16 months later, perhaps the fairest and
most nonpartisan version of the electoral map yet has
gone a little bit viral: one that includes a dot representing every single vote cast. That’s 65,844,954 blue dots
for Hillary Clinton and 62,979,636 red dots for Donald
Trump.
In this new version, cartographer Kenneth Field
wanted to include all votes – not just those of the victor
in each area. Field says Trump’s map isn’t “incorrect .
. . [but] there isn’t just one way of mapping the data”;
Field also wanted to make “a map that pushes the data
into areas where people actually live.”
To make this “dot-density” map, he used ArcGIS
software from Esri, the company where he works, to
illustrate information from two government data sets,
one on election results and the other, the USGS’s
“brilliant” national land-cover database. To the uninitiated, populating a map with more than 130 million
dots might seem almost like an act of magic, but once
he’d gathered the needed data sets, Field says making
this version of the map took him only . . . 35 minutes.
(Field aims to make a more user-friendly, zoomable,
hi-res version when he gets the time in the next few
weeks.)
Does the map tell us something “new” about the
election? Overall, it doesn’t upend any key demographic conventional wisdom: The coasts and urban
areas are mainly blue, and the rural Midwest in
particular mainly red.

74a
But online, some people seem be finding (for them at
least) surprising nuance within this version’s gashes
of red, and strips of blue: “Wow, having lived in Texas
most of my life, it’s crazy seeing so much blue in the
4 largest cities (Austin, Dallas, Houston, and San
Antonio),” noted @StaceyTurner77. “It’s quite interesting to ‘see’ that our ‘unsafe borders’ are so predominantly
blue. You’d think if the residents/citizens/voters in those
areas believed the Republican theory/solution would
work, those areas would be redder,” observed another
reader. “Rather than solid red, you see that basically
the west is pretty freaking’ empty,” said a third.
Might some American voters be starting to actually
contemplate, rather than simply to react to, the vagaries of the 2016 election? “I’m a Republican,” started
one series of tweets, “but I appreciate this map.”
http://nymag.com/intelligencer/2018/03/a-new2016-election-voting-map-promotes-subtlety.html

75a
DAILY CALLER
LA Times Editorial: Electoral College Is
Unconstitutional And Should Be Banned
December 16, 2016
5:39 p.m. ET
Blake Neff, Reporter
The Los Angeles Times has published an editorial
arguing that the Electoral College shouldn’t be allowed
to choose the next U.S. president, on the grounds that
it is unconstitutional.
Needless to say, Kenneth Jost’s argument is a very
bold one, since the Constitution explicitly creates the
Electoral College and describes how it works; the
system was even refined with the 12th Amendment.
But Jost, an adjunct professor at Georgetown University
Law Center, says that’s no barrier to having the
Supreme Court abolish the Electoral College by fiat.
“The electoral college is enshrined in the Constitution, but that doesn’t necessarily make it constitutional,”
Jost argues. Small states are too protective of the
Electoral College to approve an amendment abolishing
it, he says, so the only reasonable possibility is to have
the Supreme Court intervene and declare it illegal.
“It’s up to the Supreme Court – and a properly
framed lawsuit – to do away with a system that not
only never functioned as the framers intended but
blatantly violates the court’s ‘one person, one vote’
principle,” says Jost.
“Plaintiffs in a legal challenge could be voters in any
of the most populous states. They could correctly argue
that their votes are being systematically undervalued
in presidential elections,” he continues, glossing over

76a
that the Constitution clearly designed the Electoral
College to mitigate the influence of large states.
The Electoral College’s structure, Jost argues, is
invalid because it was initially designed in part to
protect slaveholding states where relatively few people
could vote. He then argues that the plain text of the
Constitution should be ignored in favor of the Supreme
Court’s 1964 ruling in Reynolds v. Sims, which held
that state legislative elections must follow a “one
person, one vote” principle.
“With an appropriate challenge in the high court,
that precedent ought to topple the electoral college,”
he says. He then ends his argument by quoting
Anthony Kennedy to argue that the Constitution
should be ignored so that “persons in every generation
can invoke its principles in their own search for
greater freedom.”
Read the whole editorial here. (http://www.latimes.
com/opinion/op-ed/la-oe-jost-electoral-college-20161216story.html)
Follow Blake on Twitter (https://twitter.com/Blake
Neff)
Send tips to blake@dailycallernewsfoundation.org.
Content created by The Daily Caller News Foundation
is available without charge to any eligible news publisher that can provide a large audience. For licensing
opportunities of our original content, please contact
licensing@dailycallernewsfoundation.org.
https://dailycaller.com/2016/12/16/
la-times-editorial-electoral-college-isunconstitutional-and-should-be-banned/

77a
AFFIDAVIT
Sally Jane Gellert, being duly sworn, states as
follows:
1. I am a citizen of the United States, and over the
age of 18 years old.
2. I reside in the state of New Jersey where I am
registered to vote.
3. On or around November 8, 2016, I voted in the
state of New Jersey for Hillary Clinton for president
and for Tim Kaine as vice president of the United
States.
Wherefore, I respectfully request that the Supreme
Court of the United States grant my joint petition for
the relief requested therein, pursuant to Rule 20 of the
Supreme Court rules, and order such other and
further relief as may be just and proper.
/s/ Sally Jane Gellert
Sally Jane Gellert
Sworn to before me this 9th day of November, 2018
/s/ William D. Russiello
WILLIAM D. RUSSIELLO
NOTARY PUBLIC OF NEW JERSEY
MY COMMISSION EXPIRES: October 30, 2023

78a
AFFIDAVIT
Peter Appel, being duly sworn, states as follows:
1. I am a citizen of the United States, and over the
age of 18 years old.
2. I reside in the state of Pennsylvania where I am
registered to vote.
3. On or around November 8, 2016, I voted in the
state of Pennsylvania for Hillary Clinton for president
and for Tim Kaine as vice president of the United
States.
Wherefore, I respectfully request the Supreme Court
of the United States grant my joint petition for the
relief requested therein, pursuant to Rule 20 of the
Supreme Court rules and order such other and further
relief as may be just and proper.
/s/ Peter Appel
Peter Appel
Sworn to before me this 9th day of November, 2018
/s/ Craig J. Vogin
[COMMONWEALTH OF PENNSYLVANIA
NOTARIAL SEAL
Craig J. Vogin, Notary Public
City of Philadelphia, Philadelphia County
My Commission Expires Aug. 1, 2021
MEMBER, PENNSYLVANIA
ASSOCIATION OF NOTARIES]

